1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16783
HIQ LABS, INC.,
Plaintiff-Appellee,
v.
LINKEDIN CORPORATION,
Defendant-Appellant.
Appeal from the United States District Court for
the Northern District of California Edward M.
Chen, District Judge, Presiding, D.C. No. 3:17-cv03301-EMC
Filed September 9, 2019
Before: J. CLIFFORD WALLACE and MARSHA S.
BERZON, Circuit Judges, and TERRENCE BERG, *
District Judge.
Concurrence by Judge Wallace
OPINION
BERZON, Circuit Judge:
May LinkedIn, the professional networking
website, prevent a competitor, hiQ, from collecting
and using information that LinkedIn users have
shared on their public profiles, available for viewing
by anyone with a web browser? HiQ, a data analytics
company, obtained a preliminary injunction
forbidding LinkedIn from denying hiQ access to
The Honorable Terrence Berg, United States District Judge for
the Eastern District of Michigan, sitting by designation.

*

2a
publicly available LinkedIn member profiles. At this
preliminary injunction stage, we do not resolve the
companies’ legal dispute definitively, nor do we
address all the claims and defenses they have
pleaded in the district court. Instead, we focus on
whether hiQ has raised serious questions on the
merits of the factual and legal issues presented to us,
as well as on the other requisites for preliminary
relief.
I.
Founded in 2002, LinkedIn is a professional
networking website with over 500 million members.
Members post resumes and job listings and build
professional “connections” with other members.
LinkedIn specifically disclaims ownership of the
information users post to their personal profiles:
according to LinkedIn’s User Agreement, members
own the content and information they submit or post
to LinkedIn and grant LinkedIn only a non-exclusive
license to “use, copy, modify, distribute, publish, and
process” that information.
LinkedIn allows its members to choose among
various privacy settings. Members can specify which
portions of their profile are visible to the general
public (that is, to both LinkedIn members and
nonmembers), and which portions are visible only to
direct connections, to the member’s “network”
(consisting of LinkedIn members within three
degrees of connectivity), or to all LinkedIn members. 1
Direct connections (or first-degree connections) are people to
whom a LinkedIn member is connected by virtue of having
invited them to connect and had the invitation accepted, or of
having accepted their invitation to connect. Second-degree
connections are people connected to a member’s first-degree
connections. Third-degree connections are people connected to a

1

3a
This case deals only with profiles made visible to the
general public.
LinkedIn also offers all members—whatever their
profile privacy settings—a “Do Not Broadcast” option
with respect to every change they make to their
profiles. If a LinkedIn member selects this option, her
connections will not be notified when she updates her
profile
information,
although
the
updated
information will still appear on her profile page (and
thus be visible to anyone permitted to view her
profile under her general privacy setting). More than
50 million LinkedIn members have, at some point,
elected to employ the “Do Not Broadcast” feature, and
approximately 20 percent of all active users who
updated their profiles between July 2016 and July
2017—whatever their privacy setting—employed the
“Do Not Broadcast” setting.
LinkedIn has taken steps to protect the data on its
website from what it perceives as misuse or
misappropriation. The instructions in LinkedIn’s
“robots.txt” file—a text file used by website owners to
communicate with search engine crawlers and other
web robots—prohibit access to LinkedIn servers via
automated bots, except that certain entities, like the
Google search engine, have express permission from
LinkedIn for bot access. 2 LinkedIn also employs
member’s second-degree connections. A LinkedIn member’s
network consists of the member’s first-degree, second-degree,
and third-degree connections, as well as fellow members of the
same LinkedIn Groups (groups of members in the same industry
or with similar interests that any member can request to join).
A web robot (or “bot”) is an application that performs
automated tasks such as retrieving and analyzing information.
See Definition of “bot,” Merriam-Webster Dictionary,
https://www.merriamwebster.com/dictionary/bot (last visited
2

4a
several technological systems to detect suspicious
activity and restrict automated scraping. 3 For
example, LinkedIn’s Quicksand system detects nonhuman activity indicative of scraping; its Sentinel
system throttles (slows or limits) or even blocks
activity from suspicious IP addresses; 4 and its Org
July 12, 2019). A web crawler is one common type of bot that
systematically searches the Internet and downloads copies of
web pages, which can then be indexed by a search engine. See
Assoc. Press v. Meltwater U.S. Holdings, Inc., 931 F. Supp. 2d
537, 544 (S.D.N.Y. 2013); Definition of “web crawler,” MerriamWebster
Dictionary,
https://www.merriam-webster.com/dictionary/web%20crawler (last visited July 12, 2019). A
robots.txt file, also known as the robots exclusion protocol, is a
widely used standard for stating the rules that a web server has
adopted to govern a bot’s behavior on that server. See About
/robots.txt, http://www.robotstxt.org/robotstxt.html (last visited
July 12, 2019). For example, a robots.txt file might instruct
specified robots to ignore certain files when crawling a site, so
that the files do not appear in search engine results. Adherence
to the rules in a robots.txt file is voluntary; malicious bots may
deliberately choose not to honor robots.txt rules and may in turn
be punished with a denial of access to the website in question.
See Can I Block Just Bad Robots?, http://www.robotstxt.org/faq/blockjustbad.html (last visited July 12, 2019); cf. Assoc. Press,
931 F. Supp. 2d at 563 (S.D.N.Y. 2013).
Scraping involves extracting data from a website and copying
it into a structured format, allowing for data manipulation or
analysis. See, e.g., What Is a Screen Scraper?, WiseGeek,
http://www.wisegeek.com/what-is-a-screen-scraper.htm
(last
visited July 12, 2019). Scraping can be done manually, but as in
this case, it is typically done by a web robot or “bot.” See supra
note 2.
3

“IP address” is an abbreviation for Internet protocol address,
which is a numerical identifier for each computer or network
connected to the Internet. See Definition of “IP Address,”
Merriam-Webster
Dictionary,
https://www.merriamwebster.com/dictionary/IP%20address (last visited July 12,
2019).
4

5a
Block system generates a list of known “bad” IP
addresses serving as large-scale scrapers. In total,
LinkedIn blocks approximately 95 million automated
attempts to scrape data every day, and has restricted
over 11 million accounts suspected of violating its
User Agreement, 5 including through scraping.
HiQ is a data analytics company founded in 2012.
Using automated bots, it scrapes information that
LinkedIn users have included on public LinkedIn
profiles, including name, job title, work history, and
skills. It then uses that information, along with a
proprietary predictive algorithm, to yield “people
analytics,” which it sells to business clients.
HiQ offers two such analytics. The first, Keeper,
purports to identify employees at the greatest risk of
being recruited away. According to hiQ, the product
enables employers to offer career development
opportunities, retention bonuses, or other perks to
retain valuable employees. The second, Skill Mapper,
summarizes employees’ skills in the aggregate.
Among other things, the tool is supposed to help
employers identify skill gaps in their workforces so
that they can offer internal training in those areas,
Section 8.2 of the LinkedIn User Agreement to which hiQ
agreed states that users agree not to “[s]crape or copy profiles
and information of others through any means (including
crawlers, browser plugins and add-ons, and any other
technology or manual work),” “[c]opy or use the information,
content or data on LinkedIn in connection with a competitive
service (as determined by LinkedIn),” “[u]se manual or
automated software, devices, scripts robots, other means or
processes to access, ‘scrape,’ ‘crawl’ or ‘spider’ the Services or
any related data or information,” or “[u]se bots or other
automated methods to access the Services.” HiQ is no longer
bound by the User Agreement, as LinkedIn has terminated
hiQ’s user status.
5

6a
promoting internal mobility and reducing the expense
of external recruitment.
HiQ regularly organizes “Elevate” conferences,
during which participants discuss hiQ’s business
model and share best practices in the people analytics
field. LinkedIn representatives participated in
Elevate conferences beginning in October 2015. At
least ten LinkedIn representatives attended the
conferences. LinkedIn employees have also spoken at
Elevate conferences. In 2016, a LinkedIn employee
was awarded the Elevate “Impact Award.” LinkedIn
employees thus had an opportunity to learn about
hiQ’s products, including “that [one of] hiQ’s
product[s] used data from a variety of sources—
internal and external—to predict employee attrition”
and that hiQ “collected skills data from public
professional profiles in order to provide hiQ’s
customers information about their employees’ skill
sets.”
In recent years, LinkedIn has explored ways to
capitalize on the vast amounts of data contained in
LinkedIn profiles by marketing new products. In
June 2017, LinkedIn’s Chief Executive Officer
(“CEO”), Jeff Weiner, appearing on CBS, explained
that LinkedIn hoped to “leverage all this
extraordinary data we’ve been able to collect by
virtue of having 500 million people join the site.”
Weiner mentioned as possibilities providing
employers with data-driven insights about what
skills they will need to grow and where they can find
employees with those skills. Since then, LinkedIn has
announced a new product, Talent Insights, which
analyzes LinkedIn data to provide companies with

7a
such data-driven information. 6
In May 2017, LinkedIn sent hiQ a cease-anddesist letter, asserting that hiQ was in violation of
LinkedIn’s User Agreement and demanding that hiQ
stop accessing and copying data from LinkedIn’s
server. The letter stated that if hiQ accessed
LinkedIn’s data in the future, it would be violating
state and federal law, including the Computer Fraud
and Abuse Act (“CFAA”), the Digital Millennium
Copyright Act (“DMCA”), California Penal Code §
502(c), and the California common law of trespass.
The letter further stated that LinkedIn had
“implemented technical measures to prevent hiQ
from accessing, and assisting others to access,
LinkedIn’s site, through systems that detect, monitor,
and block scraping activity.”
HiQ’s response was to demand that LinkedIn
recognize hiQ’s right to access LinkedIn’s public
pages and to threaten to seek an injunction if
LinkedIn refused. A week later, hiQ filed suit,
seeking injunctive relief based on California law and
a declaratory judgment that LinkedIn could not
lawfully invoke the CFAA, the DMCA, California
Penal Code § 502(c), or the common law of trespass
The record does not specifically name Talent Insights, but at a
district court hearing on June 29, 2017, counsel for hiQ
referenced Mr. Weiner’s statements on CBS and stated that “in
the past 24 hours we’ve received word ... that LinkedIn is
launching a product that is essentially the same or very similar
to [hiQ’s] Skill Mapper, and trying to market it head-to-head
against us.” LinkedIn has since launched Talent Insights,
which, among other things, promises to help employers
“understand the ... skills that are growing fastest at your
company.” See https://business.linkedin.com/talent-solutions/blog/product-updates/2018/linkedin-talent-insights-nowavailable (last visited July 12, 2019).
6

8a
against it. HiQ also filed a request for a temporary
restraining order, which the parties subsequently
agreed to convert into a motion for a preliminary
injunction.
The district court granted hiQ’s motion. It ordered
LinkedIn to withdraw its cease-and-desist letter, to
remove any existing technical barriers to hiQ’s access
to public profiles, and to refrain from putting in place
any legal or technical measures with the effect of
blocking hiQ’s access to public profiles. LinkedIn
timely appealed.
II.
“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits,
that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008). All four elements must be satisfied. See, e.g.,
Am. Trucking Ass’n v. City of Los Angeles, 559 F.3d
1046, 1057 (9th Cir. 2009). We use a “sliding scale”
approach to these factors, according to which “a
stronger showing of one element may offset a weaker
showing of another.” Alliance for the Wild Rockies v.
Cottrell, 632 F.3d 1127, 1131 (9th Cir. 2011). So,
when the balance of hardships tips sharply in the
plaintiff’s favor, the plaintiff need demonstrate only
“serious questions going to the merits.” Id. at 1135.
Applying that sliding scale approach, the district
court granted hiQ a preliminary injunction,
concluding that the balance of hardships tips sharply
in hiQ’s favor and that hiQ raised serious questions
on the merits. We review the district court’s decision

9a
to grant a preliminary injunction for abuse of
discretion. The grant of a preliminary injunction
constitutes an abuse of discretion if the district
court’s evaluation or balancing of the pertinent
factors is “illogical, implausible, or without support in
the record.” Doe v. Kelly, 878 F.3d 710, 713 (9th Cir.
2017).
A. Irreparable Harm
We begin with the likelihood of irreparable injury
to hiQ if preliminary relief were not granted.
“[M]onetary injury is not normally considered
irreparable.” Los Angeles Mem’l Coliseum Comm’n v.
Nat’l Football League, 634 F.2d 1197, 1202 (9th Cir.
1980). Nonetheless, “[t]he threat of being driven out
of business is sufficient to establish irreparable
harm.” Am. Passage Media Corp. v. Cass Commc’ns,
Inc., 750 F.2d 1470, 1474 (9th Cir. 1985). As the
Second Circuit has explained, “[t]he loss of ... an
ongoing business representing many years of effort
and the livelihood of its ... owners, constitutes
irreparable harm. What plaintiff stands to lose
cannot be fully compensated by subsequent monetary
damages.” Roso–Lino Beverage Distributors, Inc. v.
Coca–Cola Bottling Co. of New York, Inc., 749 F.2d
124, 125–26 (2d Cir. 1984) (per curiam). Thus,
showing a threat of “extinction” is enough to establish
irreparable harm, even when damages may be
available and the amount of direct financial harm is
ascertainable. Am. Passage Media Corp., 750 F.2d at
1474.
The district court found credible hiQ’s assertion
that the survival of its business is threatened absent
a preliminary injunction. The record provides ample
support for that finding.

10a
According to hiQ’s CEO, “hiQ’s entire business
depends on being able to access public LinkedIn
member profiles,” as “there is no current viable
alternative to LinkedIn’s member database to obtain
data for hiQ’s Keeper and Skill Mapper services.”
Without access to LinkedIn public profile data, the
CEO averred, hiQ will likely be forced to breach its
existing contracts with clients such as eBay, Capital
One, and GoDaddy, and to pass up pending deals
with prospective clients. The harm hiQ faces absent a
preliminary injunction is not purely hypothetical.
HiQ was in the middle of a financing round when it
received LinkedIn’s cease-and-desist letter. The CEO
reported that, in light of the uncertainty about the
future viability of hiQ’s business, that financing
round stalled, and several employees left the
company. If LinkedIn prevails, hiQ’s CEO further
asserted, hiQ would have to “lay off most if not all its
employees, and shutter its operations.”
LinkedIn maintains that hiQ’s business model
does not depend on access to LinkedIn data. It insists
that alternatives to LinkedIn data exist, and points
in particular to the professional data some users post
on Facebook. But hiQ’s model depends on access to
publicly available data from people who choose to
share their information with the world. Facebook
data, by contrast, is not generally accessible, see infra
p. 1002, and therefore is not an equivalent
alternative source of data.
LinkedIn also urges that even if there is no
adequate alternative database, hiQ could collect its
own data through employee surveys. But hiQ is a
data analytics company, not a data collection
company. Suggesting that hiQ could fundamentally
change the nature of its business, not simply the

11a
manner in which it conducts its current business, is a
recognition that hiQ’s current business could not
survive without access to LinkedIn public profile
data. Creating a data collection system would
undoubtedly require a considerable amount of time
and expense. That hiQ could feasibly remain in
business with no products to sell while raising the
required capital and devising and implementing an
entirely new data collection system is at least highly
dubious.
In short, the district court did not abuse its
discretion in concluding on the preliminary injunction
record that hiQ currently has no viable way to remain
in business other than using LinkedIn public profile
data for its Keeper and Skill Mapper services, and
that HiQ therefore has demonstrated a likelihood of
irreparable harm absent a preliminary injunction.
B. Balance of the Equities
Next, the district court “balance[d] the interests of
all parties and weigh[ed] the damage to each in
determining the balance of the equities.” CTIA-The
Wireless Ass’n v. City of Berkeley, Calif., 928 F.3d
832, 852 (9th Cir. 2019) (internal quotation marks
and citation omitted). Again, it did not abuse its
discretion in doing so.
On one side of the scale is the harm to hiQ just
discussed: the likelihood that, without an injunction,
it will go out of business. On the other side, LinkedIn
asserts that the injunction threatens its members’
privacy and therefore puts at risk the goodwill
LinkedIn has developed with its members. As the
district court observed, “the fact that a user has set
his profile to public does not imply that he wants any
third parties to collect and use that data for all

12a
purposes.” LinkedIn points in particular to the more
than 50 million members who have used the “Do Not
Broadcast” feature to ensure that other users are not
notified when the member makes a profile change.
According to LinkedIn, the popularity of the “Do Not
Broadcast” feature indicates that many members—
including members who choose to share their
information publicly—do not want their employers to
know they may be searching for a new job. An
employer who learns that an employee may be
planning to leave will not necessarily reward that
employee with a retention bonus. Instead, the
employer could decide to limit the employee’s access
to sensitive information or even to terminate the
employee.
There is support in the record for the district
court’s connected conclusions that (1) LinkedIn’s
assertions have some merit; and (2) there are reasons
to discount them to some extent. First, there is little
evidence that LinkedIn users who choose to make
their profiles public actually maintain an expectation
of privacy with respect to the information that they
post publicly, and it is doubtful that they do.
LinkedIn’s privacy policy clearly states that “[a]ny
information you put on your profile and any content
you post on LinkedIn may be seen by others” and
instructs users not to “post or add personal data to
your profile that you would not want to be public.”
Second, there is no evidence in the record to
suggest that most people who select the “Do Not
Broadcast” option do so to prevent their employers
from being alerted to profile changes made in
anticipation of a job search. As the district court
noted, there are other reasons why users may choose
that option—most notably, many users may simply

13a
wish to avoid sending their connections annoying
notifications each time there is a profile change. In
any event, employers can always directly consult the
profiles of users who chose to make their profiles
public to see if any recent changes have been made.
Employees intent on keeping such information from
their employers can do so by rejecting public exposure
of their profiles and eliminating their employers as
contacts.
Finally, LinkedIn’s own actions undercut its
argument that users have an expectation of privacy
in public profiles. LinkedIn’s “Recruiter” product
enables recruiters to “follow” prospects, get “alert[ed]
when prospects make changes to their profiles,” and
“use those [alerts] as signals to reach out at just the
right moment,” without the prospect’s knowledge. 7
And subscribers to LinkedIn’s “talent recruiting,
marketing and sales solutions” can export data from
members’ public profiles, such as “name, headline,
current company, current title, and location.”
In short, even if some users retain some privacy
interests in their information notwithstanding their
decision to make their profiles public, we cannot, on
the record before us, conclude that those interests—
or more specifically, LinkedIn’s interest in preventing
hiQ from scraping those profiles—are significant
enough to outweigh hiQ’s interest in continuing its
business, which depends on accessing, analyzing, and
communicating information derived from public
LinkedIn profiles.
Nor do the other harms asserted by LinkedIn tip
Recruiter does not provide alerts about profile changes made
by LinkedIn members who select the “Do Not Broadcast”
setting.

7

14a
the balance of harms with regard to preliminary
relief. LinkedIn invokes an interest in preventing
“free riders” from using profiles posted on its
platform. But LinkedIn has no protected property
interest in the data contributed by its users, as the
users retain ownership over their profiles. And as to
the publicly available profiles, the users quite
evidently intend them to be accessed by others,
including for commercial purposes—for example, by
employers seeking to hire individuals with certain
credentials. Of course, LinkedIn could satisfy its “free
rider” concern by eliminating the public access
option, albeit at a cost to the preferences of many
users and, possibly, to its own bottom line.
We
conclude
that
the
district
court’s
determination that the balance of hardships tips
sharply in hiQ’s favor is not “illogical, implausible, or
without support in the record.” Kelly, 878 F.3d at 713.
C. Likelihood of Success
Because hiQ has established that the balance of
hardships tips decidedly in its favor, the likelihood-ofsuccess prong of the preliminary injunction inquiry
focuses on whether hiQ has raised “serious questions
going to the merits.” Alliance for the Wild Rockies,
632 F.3d at 1131. It has.
As usual, we consider only the claims and
defenses that the parties press on appeal. We
recognize that the companies have invoked additional
claims and defenses in the district court, and we
express no opinion as to whether any of those claims
or defenses might ultimately prove meritorious. Thus,
while hiQ advanced several affirmative claims in
support of its request for preliminary injunctive
relief, here we consider only whether hiQ has raised

15a
serious questions on the merits of its claims either for
intentional interference with contract or unfair
competition, under California’s Unfair Competition
Law, Cal. Bus. & Prof. Code § 17200 et seq. Likewise,
while LinkedIn has asserted that it has “claims under
the Digital Millennium Copyright Act and under
trespass and misappropriation doctrines,” it has
chosen for present purposes to focus on a defense
based on the CFAA, so that is the sole defense to
hiQ’s claims that we address here.
1. Tortious Interference with Contract
HiQ alleges that LinkedIn intentionally interfered
with hiQ’s contracts with third parties. “The elements
which a plaintiff must plead to state the cause of
action for intentional interference with contractual
relations are (1) a valid contract between plaintiff
and a third party; (2) defendant’s knowledge of this
contract; (3) defendant’s intentional acts designed to
induce a breach or disruption of the contractual
relationship; (4) actual breach or disruption of the
contractual relationship; and (5) resulting damage.”
Pac. Gas & Elec. Co. v. Bear Stearns & Co., 50 Cal. 3d
1118, 1126, 270 Cal.Rptr. 1, 791 P.2d 587 (1990). 8
Under California law, tortious interference with contract
claims are not limited to circumstances in which the defendant
has caused the third party with whom the plaintiff has
contracted to breach the agreement. “The most general
application of the rule is to cases where the party with whom
the plaintiff has entered into an agreement has been induced to
breach it, but the rule is also applicable where the plaintiff’s
performance has been prevented or rendered more expensive or
burdensome and where he has been induced to breach the
contract by conduct of the defendant, such as threats of
economic reprisals.” Lipman v. Brisbane Elementary Sch. Dist.,
55 Cal. 2d 224, 232, 11 Cal.Rptr. 97, 359 P.2d 465 (1961),
abrogated on other grounds by Brown v. Kelly Broadcasting Co.,

8

16a
HiQ has shown a sufficient likelihood of
establishing each of these elements. First, LinkedIn
does not contest hiQ’s evidence that contracts exist
between hiQ and some customers, including eBay,
Capital One, and GoDaddy.
Second, hiQ will likely be able to establish that
LinkedIn knew of hiQ’s scraping activity and
products for some time. LinkedIn began sending
representatives to hiQ’s Elevate conferences in
October 2015. At those conferences, hiQ discussed its
business model, including its use of data from
external sources to predict employee attrition.
LinkedIn’s director of business operations and
analytics, who attended several Elevate conferences,
specifically “recall[s] someone from hiQ stating [at
the April 2017 conference] that they collected skills
data from public professional profiles in order to
provide hiQ’s customers information about their
employees’ skill sets.” Additionally, LinkedIn
acknowledged in its cease-and-desist letter that “hiQ
has stated during marketing presentations that its
Skill Mapper product is built on profile data from
LinkedIn.” Finally, at a minimum, LinkedIn knew of
hiQ’s contracts as of May 31, 2017, when hiQ
responded to LinkedIn’s cease-and-desist letter and
identified both current and prospective hiQ clients.
Third, LinkedIn’s threats to invoke the CFAA and
implementation of technical measures selectively to
ban hiQ bots could well constitute “intentional acts
48 Cal. 3d 711, 753 n.37, 257 Cal.Rptr. 708, 771 P.2d 406 (1989);
see also Pac. Gas & Elec. Co., 50 Cal. 3d at 1129, 270 Cal.Rptr.
1, 791 P.2d 587 (“We have recognized that interference with the
plaintiff’s performance may give rise to a claim for interference
with contractual relations if plaintiff’s performance is made
more costly or more burdensome.”).

17a
designed to induce a breach or disruption” of hiQ’s
contractual relationships with third parties. Pac. Gas
& Elec. Co., 50 Cal. 3d at 1126, 270 Cal.Rptr. 1, 791
P.2d 587; cf. Winchester Mystery House, LLC v.
Global Asylum, Inc., 210 Cal. App. 4th 579, 597, 148
Cal.Rptr.3d 412 (2012) (indicating that “cease-anddesist letters ... refer[ring] to a[ ] contractual or other
economic relationship between plaintiff and any third
party” could “establish ... the ... intent element[ ] of
the interference claim[ ]”).
Fourth, the contractual relationships between hiQ
and third parties have been disrupted and “now
hang[ ] in the balance.” Without access to LinkedIn
data, hiQ will likely be unable to deliver its services
to its existing customers as promised.
Last, hiQ is harmed by the disruption to its
existing contracts and interference with its pending
contracts. Without the revenue from sale of its
products, hiQ will likely go out of business. See supra
pp. 992–94.
LinkedIn does not specifically challenge hiQ’s
ability to make out any of these elements of a tortious
interference claim. Instead, LinkedIn maintains that
it has a “legitimate business purpose” defense to any
such claim. Cf. Quelimane Co. v. Stewart Title Guar.
Co., 19 Cal. 4th 26, 57, 77 Cal.Rptr.2d 709, 960 P.2d
513 (1998), as modified (Sept. 23, 1998). That
contention is an affirmative justification defense for
which LinkedIn bears the burden of proof. See id.
Under California law, a legitimate business
purpose can indeed justify interference with contract,
but not just any such purpose suffices. See id. at 55–
56, 77 Cal.Rptr.2d 709, 960 P.2d 513. Where a
contractual relationship exists, the societal interest

18a
in “contractual stability is generally accepted as of
greater importance than competitive freedom.”
Imperial Ice Co. v. Rossier, 18 Cal. 2d 33, 36, 112 P.2d
631 (1941). Emphasizing the “distinction between
claims for the tortious disruption of an existing
contract and claims that a prospective contractual or
economic relationship has been interfered with by the
defendant,” the California Supreme Court instructs
that we must “bring[ ] a greater solicitude to those
relationships that have ripened into agreements.”
Della Penna v. Toyota Motor Sales, U.S.A., Inc., 11
Cal. 4th 376, 392, 45 Cal.Rptr.2d 436, 902 P.2d 740
(1995). Thus, interference with an existing contract is
not justified simply because a competitor “seeks to
further his own economic advantage at the expense of
another.” Imperial Ice, 18 Cal. 2d at 36, 112 P.2d 631;
see id. at 37, 112 P.2d 631 (“A party may not ... under
the guise of competition ... induce the breach of a
competitor’s contract in order to secure an economic
advantage.”). Rather, interference with contract is
justified only when the party alleged to have
interfered acted “to protect an interest that has
greater social value than insuring the stability of the
contract” interfered with. Id. at 35, 112 P.2d 631.
Accordingly, California courts apply a balancing
test to determine whether the interests advanced by
interference with contract outweigh the societal
interest in contractual stability:
Whether an intentional interference by
a third party is justifiable depends upon
a balancing of the importance, social
and private, of the objective advanced
by the interference against the
importance of the interest interfered
with, considering all circumstances

19a
including the nature of the actor’s
conduct and the relationship between
the parties.
Herron v. State Farm Mut. Ins. Co., 56 Cal. 2d 202,
206, 14 Cal.Rptr. 294, 363 P.2d 310 (1961).
Considerations include whether “the means of
interference involve no more than recognized trade
practices,” Buxbom v. Smith, 23 Cal. 2d 535, 546, 145
P.2d 305 (1944), and whether the conduct is “within
the realm of fair competition,” Inst. of Veterinary
Pathology, Inc. v. Cal. Health Labs., Inc., 116 Cal.
App. 3d 111, 127, 172 Cal.Rptr. 74 (Cal. Ct. App.
1981). The “determinative question” is whether the
business interest is pretextual or “asserted in good
faith.” Richardson v. La Rancherita, 98 Cal. App. 3d
73, 81, 159 Cal.Rptr. 285 (Cal. Ct. App. 1979).
Balancing the interest in contractual stability and
the specific interests interfered with against the
interests advanced by the interference, we agree with
the district court that hiQ has at least raised a
serious question on the merits of LinkedIn’s
affirmative justification defense. First, hiQ has a
strong commercial interest in fulfilling its contractual
obligations to large clients like eBay and Capital One.
Those companies benefit from hiQ’s ability to access,
aggregate, and analyze data from LinkedIn profiles.
Second, LinkedIn’s means of interference is likely
not a “recognized trade practice” as California courts
have understood that term. “Recognized trade
practices” include such activities as “advertising,”
“price-cutting,” and “hir[ing] the employees of
another for use in the hirer’s business,” Buxbom, 23
Cal. 2d at 546–47, 145 P.2d 305—all practices which
may indirectly interfere with a competitor’s contracts

20a
but do not fundamentally undermine a competitor’s
basic business model. LinkedIn’s proactive technical
measures to selectively block hiQ’s access to the data
on its site are not similar to trade practices heretofore
recognized as acceptable justifications for contract
interference.
Further, LinkedIn’s conduct may well not be
“within the realm of fair competition.” Inst. of
Veterinary Pathology, 116 Cal. App. 3d at 127, 172
Cal.Rptr. 74. HiQ has raised serious questions about
whether LinkedIn’s actions to ban hiQ’s bots were
taken in furtherance of LinkedIn’s own plans to
introduce a competing professional data analytics
tool. There is evidence from which it can be inferred
that LinkedIn knew about hiQ and its reliance on
external data for several years before the present
controversy. Its decision to send a cease-and-desist
letter occurred within a month of the announcement
by LinkedIn’s CEO that LinkedIn planned to leverage
the data on its platform to create a new product for
employers with some similarities to hiQ’s Skill
Mapper product. If companies like LinkedIn, whose
servers hold vast amounts of public data, are
permitted selectively to ban only potential
competitors from accessing and using that otherwise
public data, the result—complete exclusion of the
original innovator in aggregating and analyzing the
public information—may well be considered unfair
competition under California law. 9
The district court determined that LinkedIn’s legitimate
business purpose defense overlapped with hiQ’s claim under
California’s Unfair Competition Law (“UCL”), which the district
court found raised serious questions on the merits: “hiQ has
presented some evidence supporting its assertion that
LinkedIn’s decision to revoke hiQ’s access to its data was made

9

21a
Finally, LinkedIn’s asserted private business
interests—“protecting its members’ data and the
investment made in developing its platform” and
“enforcing its User Agreements’ prohibitions on
automated scraping”—are relatively weak. LinkedIn
has only a non-exclusive license to the data shared on
its platform, not an ownership interest. Its core
business model—providing a platform to share
professional
information—does
not
require
prohibiting hiQ’s use of that information, as
evidenced by the fact that hiQ used LinkedIn data for
some time before LinkedIn sent its cease-and-desist
letter. As to its members’ interests in their data, for
the reasons already explained, see supra pp. 994–95,
we agree with the district court that members’
privacy expectations regarding information they have
shared in their public profiles are “uncertain at best.”
Further, there is evidence that LinkedIn has itself
developed a data analytics tool similar to HiQ’s
products, undermining LinkedIn’s claim that it has
its members’ privacy interests in mind. Finally,
LinkedIn has not explained how it can enforce its
user agreement against hiQ now that its user status
has been terminated.
For all these reasons, LinkedIn may well not be
able to demonstrate a “legitimate business purpose”
that could justify the intentional inducement of a
contract breach, at least on the record now before us.
We therefore conclude that hiQ has raised at least
serious questions going to the merits of its tortious
interference with contract claim. As that showing on
the tortious interference claim is sufficient to support
for the purpose of eliminating hiQ as a competitor in the data
analytics field, and thus potentially ‘violates [the UCL].’ ”

22a
an injunction prohibiting LinkedIn from selectively
blocking hiQ’s access to public member profiles, we do
not reach hiQ’s unfair competition claim. 10
2. Computer Fraud and Abuse Act (CFAA)
Our inquiry does not end, however, with the state
law tortious interference claim. LinkedIn argues that
even if hiQ can show a likelihood of success on any of
its state law causes of action, all those causes of
action are preempted by the Computer Fraud and
Abuse Act (“CFAA”), 18 U.S.C. § 1030, which
LinkedIn asserts that hiQ violated.
The CFAA states that “[w]hoever ... intentionally
accesses a computer without authorization or exceeds
authorized access, and thereby obtains ... information
from any protected computer ... shall be punished” by
fine or imprisonment. 18 U.S.C. § 1030(a)(2)(C).
Further, “[a]ny person who suffers damage or loss by
reason of a violation” of that provision may bring a
civil suit “against the violator to obtain compensatory
LinkedIn also advances a business interest in “asserting its
rights under federal and state law.” That interest depends upon
the scope of LinkedIn’s rights under the CFAA and California’s
CFAA analogue, California Penal Code § 502. Similarly,
LinkedIn argues that there can be no tortious interference
because hiQ’s contracts are premised on unauthorized access to
LinkedIn data and are therefore illegal. Under California law,
“[i]f the central purpose of the contract is tainted with illegality,
then the contract as a whole cannot be enforced.” Marathon
Entm’t, Inc. v. Blasi, 42 Cal. 4th 974, 996, 70 Cal.Rptr.3d 727,
174 P.3d 741 (2008), as modified (Mar. 12, 2008); see also Cal.
Civ. Code § 1598 (“Where a contract has but a single object, and
such object is unlawful, whether in whole or in part, or wholly
impossible of performance ... the entire contract is void.”). As we
explain next, however, hiQ has raised at least serious questions
in support of its position that its activities are lawful under the
CFAA.
10

23a
damages and injunctive relief or other equitable
relief,” subject to certain conditions not relevant here.
18 U.S.C. § 1030(g). The term “protected computer”
refers to any computer “used in or affecting interstate
or foreign commerce or communication,” 18 U.S.C. §
1030(e)(2)(B)—effectively any computer connected to
the Internet, see United States v. Nosal (Nosal II),
844 F.3d 1024, 1050 (9th Cir. 2016), cert. denied, –––
U.S. ––––, 138 S. Ct. 314, 199 L.Ed.2d 207 (2017)—
including servers, computers that manage network
resources and provide data to other computers.
LinkedIn’s computer servers store the data members
share on LinkedIn’s platform and provide that data to
users who request to visit its website. Thus, to scrape
LinkedIn data, hiQ must access LinkedIn servers,
which are “protected computer[s].” See Nosal II, 844
F.3d at 1050.
The pivotal CFAA question here is whether once
hiQ received LinkedIn’s cease-and-desist letter, any
further scraping and use of LinkedIn’s data was
“without authorization” within the meaning of the
CFAA and thus a violation of the statute. 18 U.S.C. §
1030(a)(2). If so, hiQ could have no legal right of
access to LinkedIn’s data and so could not succeed on
any of its state law claims, including the tortious
interference with contract claim we have held
otherwise sufficient for preliminary injunction
purposes.
We have held in another context that the phrase “
‘without authorization’ is a non-technical term that,
given its plain and ordinary meaning, means
accessing a protected computer without permission.”
Nosal II, 844 F.3d at 1028. Nosal II involved an
employee accessing without permission an employer’s
private computer for which access permissions in the

24a
form of user accounts were required. Id. at 1028–29.
Nosal II did not address whether access can be
“without authorization” under the CFAA where, as
here, prior authorization is not generally required,
but a particular person—or bot—is refused access.
HiQ’s position is that Nosal II is consistent with the
conclusion that where access is open to the general
public, the CFAA “without authorization” concept is
inapplicable. At the very least, we conclude, hiQ has
raised a serious question as to this issue.
First, the wording of the statute, forbidding
“access[ ] ... without authorization,” 18 U.S.C. §
1030(a)(2), suggests a baseline in which access is not
generally available and so permission is ordinarily
required. “Authorization” is an affirmative notion,
indicating that access is restricted to those specially
recognized or admitted. See, e.g., Black’s Law
Dictionary (10th ed. 2014) (defining “authorization”
as “[o]fficial permission to do something; sanction or
warrant”). Where the default is free access without
authorization, in ordinary parlance one would
characterize selective denial of access as a ban, not as
a lack of “authorization.” Cf. Blankenhorn v. City of
Orange, 485 F.3d 463, 472 (9th Cir. 2007)
(characterizing the exclusion of the plaintiff in
particular from a shopping mall as “bann[ing]”).
Second, even if this interpretation is debatable,
the legislative history of the statute confirms our
understanding. “If [a] statute’s terms are ambiguous,
we may use ... legislative history[ ] and the statute’s
overall purpose to illuminate Congress’s intent.”
Jonah R. v. Carmona, 446 F.3d 1000, 1005 (9th Cir.
2006).
The CFAA was enacted to prevent intentional

25a
intrusion onto someone else’s computer—specifically,
computer hacking. See United States v. Nosal (Nosal
I), 676 F.3d 854, 858 (9th Cir. 2012) (citing S. Rep.
No. 99-432, at 9 (1986) (Conf. Rep.)).
The 1984 House Report on the CFAA explicitly
analogized the conduct prohibited by section 1030 to
forced entry: “It is noteworthy that section 1030 deals
with an ‘unauthorized access’ concept of computer
fraud rather than the mere use of a computer. Thus,
the conduct prohibited is analogous to that of
‘breaking and entering’ ....’ ” H.R. Rep. No. 98-894, at
20 (1984); see also id. at 10 (describing the problem of
“ ‘hackers’ who have been able to access (trespass
into) both private and public computer systems”).
Senator Jeremiah Denton similarly characterized the
CFAA as a statute designed to prevent unlawful
intrusion into otherwise inaccessible computers,
observing that “[t]he bill makes it clear that
unauthorized access to a Government computer is a
trespass offense, as surely as if the offender had
entered a restricted Government compound without
proper authorization.” 11 132 Cong. Rec. 27639 (1986)
(emphasis
added).
And
when
considering
amendments to the CFAA two years later, the House
again linked computer intrusion to breaking and
entering. See H.R. Rep. No. 99-612, at 5–6 (1986)
(describing “the expanding group of electronic
trespassers,” who trespass “just as much as if they
broke a window and crawled into a home while the
occupants were away”).
In recognizing that the CFAA is best understood
as an anti-intrusion statute and not as a
The CFAA originally prohibited only unauthorized access to
government computers.
11

26a
“misappropriation statute,” Nosal I, 676 F.3d at 857–
58, we rejected the contract-based interpretation of
the CFAA’s “without authorization” provision
adopted by some of our sister circuits. Compare
Facebook, Inc. v. Power Ventures, Inc., 844 F.3d 1058,
1067 (9th Cir. 2016), cert. denied, ––– U.S. ––––, 138
S. Ct. 313, 199 L.Ed.2d 206 (2017) (“[A] violation of
the terms of use of a website—without more—cannot
establish liability under the CFAA.”); Nosal I, 676
F.3d at 862 (“We remain unpersuaded by the
decisions of our sister circuits that interpret the
CFAA broadly to cover violations of corporate
computer use restrictions or violations of a duty of
loyalty.”), with EF Cultural Travel BV v. Explorica,
Inc., 274 F.3d 577, 583–84 (1st Cir. 2001) (holding
that violations of a confidentiality agreement or other
contractual restraints could give rise to a claim for
unauthorized access under the CFAA); United States
v. Rodriguez, 628 F.3d 1258, 1263 (11th Cir. 2010)
(holding that a defendant “exceeds authorized access”
when violating policies governing authorized use of
databases).
We therefore look to whether the conduct at issue
is analogous to “breaking and entering.” H.R. Rep.
No. 98-894, at 20. Significantly, the version of the
CFAA initially enacted in 1984 was limited to a
narrow
range
of
computers—namely,
those
containing national security information or financial
data and those operated by or on behalf of the
government. See Counterfeit Access Device and
Computer Fraud and Abuse Act of 1984, Pub. L. No.
98-473, § 2102, 98 Stat. 2190, 2190–91. None of the
computers to which the CFAA initially applied were
accessible to the general public; affirmative
authorization of some kind was presumptively

27a
required.
When section 1030(a)(2)(c) was added in 1996 to
extend the prohibition on unauthorized access to any
“protected
computer,”
the
Senate
Judiciary
Committee explained that the amendment was
designed to “to increase protection for the privacy and
confidentiality of computer information.” S. Rep. No.
104-357, at 7 (emphasis added). The legislative
history of section 1030 thus makes clear that the
prohibition on unauthorized access is properly
understood to apply only to private information—
information delineated as private through use of a
permission requirement of some sort. As one
prominent
commentator
has
put
it,
“an
authentication requirement, such as a password gate,
is needed to create the necessary barrier that divides
open spaces from closed spaces on the Web.” Orin S.
Kerr, Norms of Computer Trespass, 116 Colum. L.
Rev. 1143, 1161 (2016). Moreover, elsewhere in the
statute, password fraud is cited as a means by which
a computer may be accessed without authorization,
see 18 U.S.C. § 1030(a)(6), 12 bolstering the idea that
authorization is only required for password-protected
sites or sites that otherwise prevent the general
public from viewing the information.
We therefore conclude that hiQ has raised a
serious question as to whether the reference to access
“without authorization” limits the scope of the
18 U.S.C. § 1030(a)(6) provides: “Whoever ... knowingly and
with intent to defraud traffics ... in any password or similar
information through which a computer may be accessed without
authorization, if—(A) such trafficking affects interstate or
foreign commerce; or (B) such computer is used by or for the
Government of the United States; ... shall be punished as
provided in subsection (c) of this section.”

12

28a
statutory coverage to computer information for which
authorization or access permission, such as password
authentication, is generally required. Put differently,
the CFAA contemplates the existence of three kinds
of computer information: (1) information for which
access is open to the general public and permission is
not required, (2) information for which authorization
is required and has been given, and (3) information
for which authorization is required but has not been
given (or, in the case of the prohibition on exceeding
authorized access, has not been given for the part of
the system accessed). Public LinkedIn profiles,
available to anyone with an Internet connection, fall
into the first category. With regard to such
information, the “breaking and entering” analogue
invoked
so
frequently
during
congressional
consideration has no application, and the concept of
“without authorization” is inapt.
Neither of the cases LinkedIn principally relies
upon is to the contrary. LinkedIn first cites Nosal II,
844 F.3d 1024 (9th Cir. 2016). As we have already
stated, Nosal II held that a former employee who
used current employees’ login credentials to access
company computers and collect confidential
information had acted “ ‘without authorization’ in
violation of the CFAA.” Nosal II, 844 F.3d at 1038.
The computer information the defendant accessed in
Nosal II was thus plainly one which no one could
access without authorization.
So too with regard to the system at issue in Power
Ventures, 844 F.3d 1058 (9th Cir. 2016), the other
precedent upon which LinkedIn relies. In that case,
Facebook sued Power Ventures, a social networking
website
that
aggregated
social
networking
information from multiple platforms, for accessing

29a
Facebook users’ data and using that data to send
mass messages as part of a promotional campaign.
Id. at 1062–63. After Facebook sent a cease-anddesist letter, Power Ventures continued to circumvent
IP barriers and gain access to password-protected
Facebook member profiles. Id. at 1063. We held that
after receiving an individualized cease-and-desist
letter, Power Ventures had accessed Facebook
computers “without authorization” and was therefore
liable under the CFAA. Id. at 1067–68. But we
specifically recognized that “Facebook has tried to
limit and control access to its website” as to the
purposes for which Power Ventures sought to use it.
Id. at 1063. Indeed, Facebook requires its users to
register with a unique username and password, and
Power Ventures required that Facebook users provide
their Facebook username and password to access
their Facebook data on Power Ventures’ platform.
Facebook, Inc. v. Power Ventures, Inc., 844 F. Supp.
2d 1025, 1028 (N.D. Cal. 2012). While Power
Ventures was gathering user data that was protected
by Facebook’s username and password authentication
system, the data hiQ was scraping was available to
anyone with a web browser.
In sum, Nosal II and Power Ventures control
situations in which authorization generally is
required and has either never been given or has been
revoked. As Power Ventures indicated, the two cases
do not control the situation present here, in which
information is “presumptively open to all comers.”
Power Ventures, 844 F.3d at 1067 n.2.
Our understanding that the CFAA is premised on
a distinction between information presumptively
accessible to the general public and information for
which authorization is generally required is

30a
consistent with our interpretation of a provision of
the Stored Communications Act (“SCA”), 18 U.S.C. §
2701 et seq., 13 nearly identical to the CFAA provision
at issue. Compare 18 U.S.C. § 2701(a) (“[W]hoever—
(1) intentionally accesses without authorization a
facility through which an electronic communication
service is provided; or (2) intentionally exceeds an
authorization to access that facility; and thereby
obtains ... unauthorized access to a wire or electronic
communication ... shall be punished ....”) with 18
U.S.C. § 1030(a)(2)(C) (“Whoever ... intentionally
accesses a computer without authorization or exceeds
authorized access, and thereby obtains ... information
from any protected computer ... shall be punished
....”). “The similarity of language in [the SCA and the
CFAA] is a strong indication that [they] should be
interpreted pari passu.” Northcross v. Bd. of Educ. of
Memphis City Schools, 412 U.S. 427, 428, 93 S.Ct.
2201, 37 L.Ed.2d 48 (1973); see also United States v.
Sioux, 362 F.3d 1241, 1246 (9th Cir. 2004).
Addressing the “without authorization” provision
of the SCA, we have distinguished between public
websites and non-public or “restricted” websites, such
as websites that “are password-protected ... or require
the user to purchase access by entering a credit card
number.” Konop v. Hawaiian Airlines, Inc., 302 F.3d
868, 875 (9th Cir. 2002); see also id. at 879 n.8. As we
explained in Konop, in enacting the SCA, “Congress
wanted to protect electronic communications that are
configured to be private” and are “ ‘not intended to be
The Stored Communications Act, enacted as part of the
Electronic Communications Privacy Act of 1986, Pub. L. No. 99508, 100 Stat. 1848, provides privacy protections for e-mail and
other electronic communications by limiting the ability of the
government to compel disclosure by internet service providers.
13

31a
available to the public.’ ” Id. at 875 (quoting S. Rep.
No. 99-541, at 35–36 (1986)). The House Committee
on the Judiciary stated, with respect to the section of
the SCA at issue, section 2701, that “[a] person may
reasonably conclude that a communication is readily
accessible to the general public if the ... means of
access are widely known, and if a person does not, in
the course of gaining access, encounter any warnings,
encryptions, password requests, or other indicia of
intended privacy.” H.R. Rep. No. 99-647, at 62 (1986).
The Committee further explained that “electronic
communications which the service provider attempts
to keep confidential would be protected, while the
statute would impose no liability for access to
features configured to be readily accessible to the
general public.” Id. at 63.
Both the legislative history of section 1030 of the
CFAA and the legislative history of section 2701 of
the SCA, with its similar “without authorization”
provision, then, support the district court’s
distinction between “private” computer networks and
websites, protected by a password authentication
system and “not visible to the public,” and websites
that are accessible to the general public.
Finally, the rule of lenity favors our narrow
interpretation of the “without authorization”
provision in the CFAA. The statutory prohibition on
unauthorized access applies both to civil actions and
to criminal prosecutions—indeed, “§ 1030 is primarily
a criminal statute.” LVRC Holdings LLC v. Brekka,
581 F.3d 1127, 1134 (9th Cir. 2009). “Because we
must interpret the statute consistently, whether we
encounter its application in a criminal or noncriminal
context, the rule of lenity applies.” Leocal v. Ashcroft,
543 U.S. 1, 11 n.8, 125 S.Ct. 377, 160 L.Ed.2d 271

32a
(2004). As we explained in Nosal I, we therefore favor
a narrow interpretation of the CFAA’s “without
authorization” provision so as not to turn a criminal
hacking statute into a “sweeping Internet-policing
mandate.” Nosal I, 676 F.3d at 858; see also id. at
863.
For all these reasons, it appears that the CFAA’s
prohibition on accessing a computer “without
authorization” is violated when a person circumvents
a computer’s generally applicable rules regarding
access permissions, such as username and password
requirements, to gain access to a computer. It is
likely that when a computer network generally
permits public access to its data, a user’s accessing
that publicly available data will not constitute access
without authorization under the CFAA. The data hiQ
seeks to access is not owned by LinkedIn and has not
been demarcated by LinkedIn as private using such
an authorization system. HiQ has therefore raised
serious questions about whether LinkedIn may
invoke the CFAA to preempt hiQ’s possibly
meritorious tortious interference claim. 14
We note that entities that view themselves as
victims of data scraping are not without resort, even
if the CFAA does not apply: state law trespass to
LinkedIn asserts that the illegality of hiQ’s actions under the
CFAA is also grounds for holding (1) that hiQ’s injuries are not
cognizable as irreparable harm, (2) that hiQ’s contracts are
illegal and so their breach cannot give rise to a cognizable
tortious interference with contract claim, and (3) that LinkedIn
has a legitimate business interest in asserting its rights under
federal law that justifies its interference with hiQ’s contracts.
See supra n.10. These contentions are insufficient at this stage
for the same reasons LinkedIn’s CFAA preemption position does
not preclude preliminary injunctive relief.
14

33a
chattels claims may still be available. 15 And other
causes of action, such as copyright infringement,
misappropriation, unjust enrichment, conversion,
breach of contract, or breach of privacy, may also lie.
See, e.g., Associated Press v. Meltwater U.S. Holdings,
Inc., 931 F. Supp. 2d 537, 561 (S.D.N.Y. 2013)
(holding that a software company’s conduct in
LinkedIn’s cease-and-desist letter also asserted a state
common law claim of trespass to chattels. Although we do not
decide the question, see supra pp. 995–96, it may be that web
scraping exceeding the scope of the website owner’s consent
gives rise to a common law tort claim for trespass to chattels, at
least when it causes demonstrable harm. Compare eBay, Inc. v.
Bidder’s Edge, Inc., 100 F. Supp. 2d 1058, 1070 (N.D. Cal. 2000)
(finding that eBay had established a likelihood of success on its
trespass claim against the auction-aggregating site Bidder’s
Edge because, although eBay’s “site is publicly accessible,”
“eBay’s servers are private property, conditional access to which
eBay grants the public,” and Bidder’s Edge had exceeded the
scope of any consent, even if it did not cause physical harm);
Register.com, Inc. v. Verio, Inc., 356 F.3d 393, 437–38 (2d Cir.
2004) (holding that a company that scraped a competitor’s
website to obtain data for marketing purposes likely committed
trespass to chattels, because scraping could—although it did not
yet—cause physical harm to the plaintiff’s computer servers);
Sw. Airlines Co. v. FareChase, Inc., 318 F. Supp. 2d 435, 442
(N.D. Tex. 2004) (holding that the use of a scraper to glean flight
information was unauthorized as it interfered with Southwest’s
use and possession of its site, even if the scraping did not cause
physical harm or deprivation), with Ticketmaster Corp. v.
Tickets.Com, Inc., No. 2:99-cv-07654-HLH-VBK, 2003 WL
21406289, at *3 (C.D. Cal. Mar. 7, 2003) (holding that the use of
a web crawler to gather information from a public website,
without more, is insufficient to fulfill the harm requirement of a
trespass action); Intel Corp. v. Hamidi, 30 Cal. 4th 1342, 1364, 1
Cal.Rptr.3d 32, 71 P.3d 296 (2003) (holding that “trespass to
chattels is not actionable if it does not involve actual or
threatened injury” to property and the defendant’s actions did
not damage or interfere with the operation of the computer
systems at issue).
15

34a
scraping and aggregating copyrighted news articles
was not protected by fair use).
D. Public Interest
Finally, we must consider the public interest in
granting or denying the preliminary injunction.
Whereas the balance of equities focuses on the
parties, “[t]he public interest inquiry primarily
addresses impact on non-parties rather than parties,”
and takes into consideration “the public consequences
in employing the extraordinary remedy of injunction.”
Bernhardt v. Los Angeles Cty., 339 F.3d 920, 931–32
(9th Cir. 2003) (citations omitted).
As the district court observed, each side asserts
that its own position would benefit the public interest
by maximizing the free flow of information on the
Internet. HiQ points out that data scraping is a
common method of gathering information, used by
search engines, academic researchers, and many
others. According to hiQ, letting established entities
that already have accumulated large user data sets
decide who can scrape that data from otherwise
public websites gives those entities outsized control
over how such data may be put to use.
For its part, LinkedIn argues that the preliminary
injunction is against the public interest because it
will invite malicious actors to access LinkedIn’s
computers and attack its servers. As a result, the
argument goes, LinkedIn and other companies with
public websites will be forced to choose between
leaving their servers open to such attacks or
protecting their websites with passwords, thereby
cutting them off from public view.
Although there are significant public interests on
both sides, the district court properly determined

35a
that, on balance, the public interest favors hiQ’s
position. We agree with the district court that giving
companies like LinkedIn free rein to decide, on any
basis, who can collect and use data—data that the
companies do not own, that they otherwise make
publicly available to viewers, and that the companies
themselves collect and use—risks the possible
creation of information monopolies that would
disserve the public interest.
Internet companies and the public do have a
substantial interest in thwarting denial-of-service
attacks 16 and blocking abusive users, identity
thieves, and other ill-intentioned actors. But we do
not view the district court’s injunction as opening the
door to such malicious activity. The district court
made clear that the injunction does not preclude
LinkedIn from continuing to engage in “technological
self-help” against bad actors—for example, by
employing “anti-bot measures to prevent, e.g.,
harmful intrusions or attacks on its server.” Although
an injunction preventing a company from securing
even the public parts of its website from malicious
actors would raise serious concerns, such concerns
are not present here. 17
The district court’s conclusion that the public
interest favors granting the preliminary injunction
was appropriate.

16 In a denial-of-service (DoS) attack, an attacker seeks to
prevent legitimate users from accessing a targeted computer or
network, typically by flooding the target with requests and
thereby overloading the server.

We note that LinkedIn has not specifically challenged the
scope of the injunction.
17

36a
CONCLUSION
We AFFIRM the district court’s determination
that hiQ has established the elements required for a
preliminary injunction and remand for further
proceedings.

37a
WALLACE, Circuit Judge, specially concurring:
I concur in the majority opinion. I write separately
to express my concern that “in some cases, parties
appeal orders granting or denying motions for
preliminary injunctions in order to ascertain the
views of the appellate court on the merits of the
litigation.” Sports Form, Inc. v. United Press Int’l,
Inc., 686 F.2d 750, 753 (9th Cir. 1982); see also
California v. Azar, 911 F.3d 558, 583–84 (9th Cir.
2018). For example, here LinkedIn’s counsel
suggested that we should address the CFAA question
in this appeal for “pragmatic reason[s]” because it “is
going to be a significant issue on remand no matter
what happens to this injunction.”
I emphasize that appealing from a preliminary
injunction to obtain an appellate court’s view of the
merits often leads to “unnecessary delay to the
parties and inefficient use of judicial resources.”
Sports Form, 686 F.2d at 753. These appeals
generally provide “little guidance” because “of the
limited scope of our review of the law” and “because
the fully developed factual record may be materially
different from that initially before the district court.”
Id.
The district court here also stayed any effort to
prepare the case for trial pending the appeal of the
preliminary injunction. We have repeatedly
admonished district courts not to delay trial
preparation to await an interim ruling on a
preliminary injunction. See, e.g., California, 911 F.3d
at 583–84. This case could have well proceeded to a
disposition on the merits without the delay in
processing the interlocutory appeal. Given the
purported urgency of the case’s resolution, the parties

38a
might “have been better served to pursue
aggressively” its claims in the district court, “rather
than apparently awaiting the outcome of this appeal”
for nearly two years. Id. at 584 (citation omitted).

39a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
Civil Action No. 17-cv-03301-EMC
HIQ LABS, INC.,
Plaintiff,
v.
LINKEDIN CORPORATION,
Defendant.
[Filed: August 14, 2017]
ORDER GRANTING PLAINTIFF’S MOTION
FOR PRELIMINARY INJUNCTION
Docket No. 23
EDWARD M. CHEN, United States District Judge
I. INTRODUCTION
Plaintiff hiQ initiated this action after Defendant
LinkedIn issued a cease and desist letter and
attempted to terminate hiQ’s ability to access
otherwise publicly available information on profiles of
LinkedIn users. The letter threatens action under the
Computer Fraud and Abuse Act (CFAA). LinkedIn
also employed various blocking techniques designed
to prevent hiQ’s automated data collection methods.
LinkedIn brought this action after years of tolerating
hiQ’s access and use of its data.
hiQ’s business involves providing information to
businesses about their workforces based on statistical
analysis of publicly available data. Its data analytics
business is wholly dependent on LinkedIn’s public
data. hiQ contends that LinkedIn’s actions constitute

40a
unfair business practices under Cal. Bus. & Prof.
Code §§ 17200 et seq. hiQ also raises a number of
common law tort and contract claims, including
intentional interference with contract and promissory
estoppel, and further contends that LinkedIn’s
actions constitute a violation of free speech under the
California Constitution.
Now pending before the Court is hiQ’s motion for
a preliminary injunction. For the reasons set forth in
more detail below, the Court GRANTS the motion. In
summary, the balance of hardships tips sharply in
hiQ’s favor. hiQ has demonstrated there are serious
questions on the merits. In particular, the Court is
doubtful that the Computer Fraud and Abuse Act
may be invoked by LinkedIn to punish hiQ for
accessing publicly available data; the broad
interpretation of the CFAA advocated by LinkedIn, if
adopted, could profoundly impact open access to the
Internet, a result that Congress could not have
intended when it enacted the CFAA over three
decades ago. Furthermore, hiQ has raised serious
questions as to whether LinkedIn, in blocking hiQ’s
access to public data, possibly as a means of limiting
competition, violates state law.
II. FACTUAL AND PROCEDURAL
BACKGROUND
Founded in 2002, LinkedIn is a social networking
site focused on business and professional networking.
It currently has over 500 million users; it was
acquired by Microsoft in December 2016 for $26.2
billion.
LinkedIn allows users to create profiles and then
establish connections with other users. When
LinkedIn users create a profile on the site, they can

41a
choose from a variety of different levels of privacy
protection. They can choose to keep their profiles
entirely private, or to make them viewable by: (1)
their direct connections on the site; (2) a broader
network of connections; (3) all other LinkedIn
members; or (4) the entire public. When users choose
the last option, their profiles are viewable by anyone
online regardless of whether that person is a
LinkedIn member. LinkedIn also allows public
profiles to be accessed via search engines such as
Google.
hiQ was founded in 2012 and has, to date,
received $14.5 million in funding. hiQ sells to its
client businesses information about their workforces
that hiQ generates through analysis of data on
LinkedIn users’ publicly available profiles. It offers
two products: “Keeper,” which tells employers which
of their employees are at the greatest risk of being
recruited away; and “Skill Mapper,” which provides a
summary of the skills possessed by individual
workers. Docket No. 23–4 (Weidick Decl.) ¶¶ 4–6. hiQ
gathers the workforce data that forms the foundation
of its analytics by automatically collecting it, or
harvesting or “scraping” it, from publicly available
LinkedIn profiles. hiQ’s model is predicated entirely
on access to data LinkedIn users have opted to
publish publicly. hiQ relies on LinkedIn data because
LinkedIn is the dominant player in the field of
professional networking.
On May 23, 2017, LinkedIn sent a letter
demanding that hiQ “immediately cease and desist
unauthorized data scraping and other violations of
LinkedIn’s User Agreement.” Docket No. 23–1
(“Gupta Decl.”) Ex. J. In the letter, LinkedIn
demanded that hiQ cease using software to “scrape,”

42a
or automatically collect, data from LinkedIn’s public
profiles. LinkedIn noted that its User Agreement
prohibits various methods of data collection from its
website, and stated that hiQ was in violation of those
provisions. LinkedIn also stated that it had restricted
hiQ’s company page on LinkedIn and that “[a]ny
future access of any kind” to LinkedIn by hiQ would
be “without permission and without authorization
from LinkedIn.” LinkedIn further stated that it had
“implemented technical measures to prevent hiQ
from accessing, and assisting other to access,
LinkedIn’s site, through systems that detects,
monitor, and block scraping activity.” LinkedIn
stated that any further access to LinkedIn’s data
would violate state and federal law, including
California Penal Code § 502(c), the federal Computer
Fraud and Abuse Act (“CFAA”), 18 U.S.C. § 1030,
state common law of trespass, and the Digital
Millennium Copyright Act. LinkedIn reserved the
right to pursue litigation, should hiQ fail to cease and
desist from accessing LinkedIn’s website, computer
systems, and data.
After hiQ and LinkedIn were unable to agree on
an amicable resolution, and LinkedIn declined to
permit hiQ’s continued access in the interim, hiQ
filed the complaint in this action, which asserts
affirmative rights against the denial of access to
publicly available LinkedIn profiles based on
California common law, the UCL, and the California
Constitution. hiQ also seeks a declaration that hiQ
has not and will not violate the CFAA, the DMCA,
California Penal Code § 502(c), and the common law
of trespass to chattels, by accessing LinkedIn public
profiles. Docket No. 1. At the same time, hiQ also
filed a request for a temporary restraining order and

43a
an order to show cause why a preliminary injunction
should not be issued against LinkedIn. Docket No. 23.
After a hearing on the TRO request, the parties
entered into a standstill agreement preserving hiQ’s
access to the data and converting hiQ’s initial motion
into a motion for a preliminary injunction. A hearing
on the motion for preliminary injunction was held on
July 27, 2017.
III. DISCUSSION
“A plaintiff seeking a preliminary injunction must
establish that he is likely to succeed on the merits,
that he is likely to suffer irreparable harm in the
absence of preliminary relief, that the balance of
equities tips in his favor, and that an injunction is in
the public interest.” Winter v. Nat. Res. Def. Council,
Inc., 555 U.S. 7, 20, 129 S.Ct. 365, 172 L.Ed.2d 249
(2008). In evaluating these factors, courts in the
Ninth Circuit employ a “sliding scale” approach,
according to which “the elements of the preliminary
injunction test are balanced, so that a stronger
showing of one element may offset a weaker showing
of another. For example, a stronger showing of
irreparable harm to plaintiff might offset a lesser
showing of likelihood of success on the merits.” All.
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131
(9th Cir. 2011). At minimum, “[u]nder Winter,
plaintiffs must establish that irreparable harm is
likely, not just possible, in order to obtain a
preliminary injunction.” Id. (emphasis in original).
Specifically, the Ninth Circuit “has adopted and
applied a version of the sliding scale approach under
which a preliminary injunction could issue where the
likelihood of success is such that ‘serious questions
going to the merits were raised and the balance of
hardships tips sharply in [plaintiff’s] favor.’”

44a
(quoting Clear Channel Outdoor, Inc. v. City of Los
Angeles, 340 F.3d 810, 813 (9th Cir. 2003)). Thus,
upon a showing that the balance of hardships tips
sharply in its favor, a party seeking a preliminary
injunction need only show that there are “serious
questions going to the merits” in order to be entitled
to relief. Because the balance of hardships, including
the threat of irreparable harm faced by each party,
informs the requisite showing on the merits, the
Court addresses that prong first.
A. Irreparable Harm and Balance of Hardships
hiQ states that absent injunctive relief, it will
suffer immediate and irreparable harm because its
entire business model depends on access to
LinkedIn’s data. If LinkedIn prevails, hiQ will simply
go out of business; it “will have to breach its
agreements with its customers, stop discussions with
its long list of prospective customers, lay off most if
not all its employees, and shutter its operations.”
Docket No. 24 (“Motion”) at 24. These are credible
assertions, given the undisputed fact that hiQ’s entire
business depends on its access to LinkedIn’s public
profile data. 1 These potential consequences are
At the hearing, LinkedIn pointed to the fact that other
companies operate in the data analytics field without making
use of LinkedIn’s member data. But as hiQ pointed out, these
companies employ entirely different business models. For
example, one company highlighted by LinkedIn, Glint, creates
its own data by taking surveys of employees working for its
clients. Requiring hiQ to rebuild its business on an entirely
different business model, such as that employed by Glint, from
scratch would constitute harm comparable to simply going out of
business. LinkedIn also suggests that hiQ could make use of
other sources of data, such as Facebook. But while Facebook
may have a comparable number of professionals using its
service, LinkedIn has not argued that the professional data

1

45a
sufficient to constitute irreparable harm. “The threat
of being driven out of business is sufficient to
establish irreparable harm.” Am. Passage Media
Corp. v. Cass Commc’ns, Inc., 750 F.2d 1470, 1474
(9th Cir. 1985); see also Doran v. Salem Inn, Inc., 422
U.S. 922, 932, 95 S.Ct. 2561, 45 L.Ed.2d 648 (1975)
(holding that “a substantial loss of business and
perhaps even bankruptcy” constitutes irreparable
harm sufficient to warrant interim relief). Similarly,
“[e]vidence of threatened loss of prospective
customers or goodwill certainly supports a finding of
the possibility of irreparable harm.” Stuhlbarg Int’l
Sales Co. v. John D. Brush & Co., 240 F.3d 832, 841
(9th Cir. 2001).
For its part, LinkedIn argues that it faces
significant harm because hiQ’s data collection
threatens the privacy of LinkedIn users, because
even members who opt to make their profiles publicly
viewable retain a significant interest in controlling
the use and visibility of their data. 2 In particular,
LinkedIn points to the interest that some users may
have in preventing employers or other parties from
tracking changes they have made to their profiles.
LinkedIn posits that when a user updates his profile,
that action may signal to his employer that he is
looking for a new position. LinkedIn states that over
50 million LinkedIn members have used a “Do Not
Broadcast” feature that prevents the site from
notifying other users when a member makes profile
available at Facebook is of a similar quality to that available at
LinkedIn. Moreover, if LinkedIn’s view of the law is correct,
nothing would prevent Facebook from barring hiQ in the same
way LinkedIn has.
LinkedIn does not claim a proprietary interest in its users’
profiles.

2

46a
changes. This feature is available even when a profile
is set to public. LinkedIn also points to specific user
complaints it has received objecting to the use of data
by third parties. In particular, two users complained
that information that they had previously featured on
their profile, but subsequently removed, remained
viewable via third parties. (These complaints
involved third parties other than hiQ.) LinkedIn
maintains that all of these concerns are potentially
undermined by hiQ’s data collection practices: while
the information that hiQ seeks to collect is publicly
viewable, the posting of changes to a profile may
raise the risk that a current employee may be rated
as having a higher risk of flight under Keeper even
though the employee chose the Do Not Broadcast
setting. hiQ could also make data from users
available even after those users have removed it from
their profiles or deleted their profiles altogether.
LinkedIn argues that both it and its users therefore
face substantial harm absent an injunction; if hiQ is
able to continue its data collection unabated,
LinkedIn members’ privacy may be compromised, and
the company will suffer a corresponding loss of
consumer trust and confidence.
These considerations are not without merit, but
there are a number of reasons to discount to some
extent the harm claimed by LinkedIn. First, LinkedIn
emphasizes that the fact that 50 million users have
opted into the “Do Not Broadcast” feature indicates
that a vast number of its users are fearful that their
employer may monitor their accounts for possible
changes. But there are other potential reasons why a
user may opt for that setting. For instance, users may
be cognizant that their profile changes are generating
a large volume of unwanted notifications broadcasted

47a
to their connections on the site. They may wish to
limit annoying intrusions into their contacts. 3
Second, LinkedIn has presented little evidence of
users’ actual privacy expectation; out of its hundreds
of millions of users, including 50 million using Do Not
Broadcast, LinkedIn has only identified three
individual complaints specifically raising concerns
about data privacy related to third-party data
collection. Docket No. 49–1 Exs. A–C. None actually
discuss hiQ or the “Do Not Broadcast” setting. Third,
LinkedIn’s professed privacy concerns are somewhat
undermined by the fact that LinkedIn allows other
third-parties to access user data without its members’
knowledge or consent. LinkedIn offers a product
called “Recruiter” that allows professional recruiters
to identify possible candidates for other job
opportunities. LinkedIn avers that when users have
selected the Do Not Broadcast option, the Recruiter
product respects this choice and does not update
recruiters of profile changes. However, hiQ presented
marketing materials at the hearing which indicate
that regardless of other privacy settings, information
including profile changes are conveyed to third
parties who subscribe to Recruiter. Indeed, these
materials inform potential customers that when they
“follow” another user, “[f]rom now on, when they
update their profile or celebrate a work anniversary,
you’ll receive an update on your homepage. And don’t
worry—they don’t know you’re following them.”
LinkedIn thus trumpets its own product in a way
Though the “Do Not Broadcast” feature makes it less likely to
draw immediate attention to a profile update, it does nothing to
prevent an employer, or any other third-party, from visiting an
employee’s page periodically to determine whether significant
changes have been made.
3

48a
that seems to afford little deference to the very
privacy concerns it professes to be protecting in this
case.
LinkedIn stresses that its privacy policy expressly
permits disclosures of this sort, whereas it expressly
prohibits third-party scraping of the sort that hiQ
engages in. Accordingly, LinkedIn argues that the
Recruiter program accords with its members’
expectations of privacy, whereas hiQ’s data collection
does not. 4 It is unlikely, however, that most users’
actual privacy expectations are shaped by the fine
print of a privacy policy buried in the User
Agreement that likely few, if any, users have actually
read. 5 To the contrary, it is not obvious that LinkedIn
members who decide to set their profiles to be
publicly viewable expect much privacy at all in the
profiles they post.
In sum, hiQ unquestionably faces irreparable
harm in the absence of an injunction, as it will likely
be driven out of business. The asserted harm
LinkedIn faces, by contrast, is tied to its users’
expectations of privacy and any impact on user trust
in LinkedIn. However, those expectations are
uncertain at best, and in any case, LinkedIn’s own
actions do not appear to have zealously safeguarded
4 LinkedIn argues hiQ signed up as a LinkedIn user and is thus
bound by the User Agreement. But LinkedIn has since
terminated hiQ’s user status. LinkedIn has not demonstrated
that hiQ’s aggregation of data from LinkedIn’s public profiles is
dependent on its status as a LinkedIn user.

See, e.g., Tom Towers, Thousands Sign up for Community
Service After Failing to Read Terms and Conditions, Metro
News
(July
14,
2017,
11:12
PM),
http://metro.co.uk/2017/07/14/thousandssign-up-for-communityservice-after-failing-to-read-terms-and-conditions-6781034/.
5

49a
those privacy interests.
Furthermore, despite the fact that hiQ has been
aggregating LinkedIn’s public data for five years with
LinkedIn’s knowledge, LinkedIn has presented no
evidence of harm, financial or otherwise resulting
from hiQ’s activities. Indeed, LinkedIn has not
explained why suddenly it has now chosen to revoke
its consent (or at least tolerance) of hiQ’s use of that
data.
The Court concludes that based on the record
presented, the balance of hardships tips sharply in
hiQ’s favor. To be entitled to an injunction, therefore,
hiQ needs only show that it has raised “serious
questions going to the merits.” All. for the Wild
Rockies, 632 F.3d at 1131.
B. Serious Questions Going to the Merits
hiQ argues that it is likely to prevail on the
merits—or at least raises serious questions going to
the merits—on each of its claims. For its part,
LinkedIn argues that all of hiQ’s claims necessarily
fail because hiQ’s unauthorized access to LinkedIn’s
computers violates the CFAA. Thus, not only is
LinkedIn’s cease and desist letter backed by the
CFAA, to the extent that any of hiQ’s state claims
have merit, they would be preempted by the CFAA.
The Court thus first addresses the likelihood that the
CFAA applies.
1. CFAA
Whether hiQ’s continued access to the LinkedIn
public profiles violates the CFAA constitutes a key
threshold question in this case. The CFAA creates
civil and criminal liability for any person who
“intentionally
accesses
a
computer
without

50a
authorization or exceeds authorized access, and
thereby obtains ... information from any protected
computer.” 6 18 U.S.C. § 1030(a)(2)(C). As the
Supreme Court has explained, the statute “provides
two ways of committing the crime of improperly
accessing a protected computer: (1) obtaining access
without authorization; and (2) obtaining access with
authorization but then using that access improperly.”
Musacchio v. United States, ––– U.S. ––––, 136 S.Ct.
709, 713, 193 L.Ed.2d 639 (2016).
The key question regarding the applicability of the
CFAA in this case is whether, by continuing to access
public LinkedIn profiles after LinkedIn has explicitly
revoked permission to do so, hiQ has “accesse[d] a
computer without authorization” within the meaning
of the CFAA. LinkedIn argues that under the plain
meaning of “without authorization,” as well as under
relevant Ninth Circuit authority, hiQ has. LinkedIn
relies primarily on two cases.
First, in Facebook, Inc. v. Power Ventures, Inc., the
Ninth Circuit held that “a defendant can run afoul of
the CFAA when he or she has no permission to access
a computer or when such permission has been revoked
explicitly.” 844 F.3d 1058, 1067 (9th Cir. 2016)
(emphasis added). In Power Ventures, the defendant
operated a site that extracted and aggregated users’
social networking information from Facebook and
other sites on a single page. The defendant gained
access to password-protected Facebook member
As LinkedIn notes, because its computers are connected to the
Internet and affect interstate commerce, they are “protected
computers” under the CFAA. See United States v. Nosal
(Nosal I), 676 F.3d 854, 859 (9th Cir. 2012). hiQ does not dispute
this fact.
6

51a
profiles when its users supplied their Facebook login
credentials. When users selected certain options on
the defendant’s site, the defendant, in many
instances, “caused a message to be transmitted to the
user’s friends within the Facebook system.” Id. at
1063. Facebook had sent a cease and desist letter
demanding that Power Ventures cease accessing
information on users’ pages. The Ninth Circuit found
a CFAA violation where “after receiving written
notification from Facebook” Power Ventures
“circumvented IP barriers” and continued to access
Facebook servers. Id. at 1068. In short, Power
Ventures accessed Facebook computers “without
authorization.”
LinkedIn also relies on United States v. Nosal
(Nosal II), 844 F.3d 1024 (9th Cir. 2016). There, the
Ninth Circuit held that an employee “whose computer
access credentials were affirmatively revoked by [his
employer] acted ‘without authorization’ in violation of
the CFAA when he or his former employee
coconspirators used the login credentials of a current
employee” to gain access to the employer’s computer
systems. Id. at 1038. Specifically, the defendant
persuaded current employees of the company to use
their login credentials to access and collect
confidential information, including trade secrets that
Nosal and the employees planned to use to start a
competing business. Id. at 1028–29. The court held
“that ‘without authorization” is an unambiguous,
non-technical term that, given its plain and ordinary
meaning, means accessing a protected computer
without permission.” Id. at 1028. Defendant’s
authorization had been revoked when he left the
company.
Each of these cases is distinguishable in an

52a
important respect: none of the data in Facebook or
Nosal II was public data. Rather, the defendants in
those cases gained access to a computer network (in
Nosal II) and a portion of a website (in Power
Ventures) that were protected by a password
authentication system. In short, the unauthorized
intruders reached into what would fairly be
characterized as the private interior of a computer
system not visible to the public. Neither of those
cases confronted the precise issue presented here:
whether visiting and collecting information from a
publicly available website may be deemed “access” to
a computer “without authorization” within the
meaning of the CFAA where the owner of the web
site has selectively revoked permission.
To be sure, LinkedIn’s construction of the CFAA is
not without basis. Visiting a website accesses the
host computer in one literal sense, and where
authorization has been revoked by the website host,
that “access” can be said to be “without
authorization.” See Craigslist Inc. v. 3Taps Inc., 942
F.Supp.2d 962 (N.D. Cal. 2013). However, whether
“access” to a publicly viewable site may be deemed
“without authorization” under the CFAA where the
website host purports to revoke permission is not free
from ambiguity. The Supreme Court has cautioned
that “[w]hether a statutory term is unambiguous ...
does not turn solely on dictionary definitions of its
component words. Rather, ‘the plainness or
ambiguity of statutory language is determined [not
only] by reference to the language itself, [but as well
by] the specific context in which that language is
used, and the broader context of the statute as a
whole.’” Yates v. United States, ––– U.S. ––––, 135
S.Ct. 1074, 1082, 191 L.Ed.2d 64 (2015) (quoting

53a
Robinson v. Shell Oil Co., 519 U.S. 337, 341, 117
S.Ct. 843, 136 L.Ed.2d 808 (1997)) (holding that a
fish is not a “tangible object” within the meaning of
the Sarbanes–Oxley Act). See also Bond v. U.S., –––
U.S. ––––, 134 S.Ct. 2077, 2090, 189 L.Ed.2d 1 (2014)
(rejecting literal reading of Chemical Weapons
Convention Implementation Act that would have
permitted prosecution of woman who caused minor
chemical burns to spouse’s lover’s thumb because
“[p]art of a fair reading of statutory text is
recognizing that ‘Congress legislates against the
backdrop’ of certain unexpressed presumptions”)
(quoting EEOC v. Arabian American Oil Co., 499 U.S.
244, 248, 111 S.Ct. 1227, 113 L.Ed.2d 274 (1991)).
The CFAA must be interpreted in its historical
context, mindful of Congress’ purpose. The CFAA was
not intended to police traffic to publicly available
websites on the Internet—the Internet did not exist
in 1984. The CFAA was intended instead to deal with
“hacking” or “trespass” onto private, often passwordprotected mainframe computers. See H.R. Rep. No.
98–894, 1984 U.S.C.C.A.N. 3689, 3691–92, 3695–97
(1984); S. Rep. No. 99–432, 1986 U.S.C.C.A.N. 2479,
2480 (1986). The Ninth Circuit has recognized this
statutory purpose, explaining that “Congress enacted
the CFAA in 1984 primarily to address the growing
problem of computer hacking, recognizing that, ‘[i]n
intentionally trespassing into someone else’s
computer files, the offender obtains at the very least
information as to how to break into that computer
system.’” United States v. Nosal (Nosal I), 676 F.3d
854, 858 (9th Cir. 2012) (quoting S.Rep. No. 99–432, a
9 (1986), 1986 U.S.C.C.A.N. 2479, 2487 (Conf. Rep.)).
It was originally enacted to protect government
computers from hacking; it was expanded in 1986 to

54a
protect commercial computer systems. See S.Rep. No.
99–432, at 2 (1986), 1986 U.S.C.C.A.N. 2479, 2480
(Conf. Rep.)). The Ninth Circuit, in considering a
related provision of the statute, cautioned against an
overbroad interpretation that would “expand its scope
far beyond computer hacking to criminalize any
unauthorized use of information obtained from a
computer,” thereby “mak[ing] criminals of large
groups of people who would have little reason to
suspect they are committing a federal crime.” Nosal I,
676 F.3d at 859.
As hiQ points out, application of the CFAA to the
accessing of websites open to the public would have
sweeping consequences well beyond anything
Congress could have contemplated; it would “expand
its scope well beyond computer hacking.” Nosal I, 676
F.3d at 859. Under LinkedIn’s interpretation of the
CFAA, a website would be free to revoke
“authorization” with respect to any person, at any
time, for any reason, and invoke the CFAA for
enforcement, potentially subjecting an Internet user
to criminal, as well as civil, liability. Indeed, because
the Ninth Circuit has specifically rejected the
argument that “the CFAA only criminalizes access
where the party circumvents a technological access
barrier,” Nosal II, 844 F.3d at 1038, merely viewing a
website in contravention of a unilateral directive
from a private entity would be a crime, effectuating
the digital equivalence of Medusa. The potential for
such exercise of power over access to publicly
viewable information by a private entity weaponized
by the potential of criminal sanctions is deeply
concerning. 7 This effect would be particularly
Although there is no indication of any current threat of
criminal prosecution in this case as LinkedIn thus far has

7

55a
pernicious because once it is found to apply, the
CFAA as interpreted by LinkedIn would not leave
any room for the consideration of either a website
owner’s reasons for denying authorization or an
individual’s possible justification for ignoring such a
denial. Website owners could, for example, block
access by individuals or groups on the basis of race or
gender discrimination. Political campaigns could
block selected news media, or supporters of rival
candidates, from accessing their websites. Companies
could prevent competitors or consumer groups from
visiting their websites to learn about their products
or analyze pricing. Further, in addition to
criminalizing any attempt to obtain access to
information otherwise viewable by the public at large,
the CFAA would preempt all state and local laws that
might otherwise afford a legal right of access (e.g.,
state law rights asserted by hiQ herein). A broad
reading of the CFAA could stifle the dynamic
alluded only to possible civil enforcement of the CFAA, a
construction of the CFAA must take into account the fact the
statute may be enforced criminally and that its interpretation
would apply uniformly to criminal as well as civil enforcement.
See, e.g., Ratzlaf v. United States, 510 U.S. 135, 143, 114 S.Ct.
655, 126 L.Ed.2d 615 (1994) (“A term appearing in several
places in a statutory text is generally read the same way each
time it appears. We have even stronger cause to construe a
single formulation ... the same way each time it is called into
play.”); F.C.C. v. American Broadcasting Co., 347 U.S. 284, 296,
74 S.Ct. 593, 98 L.Ed. 699 (1954) (rejecting notion that “the
same substantive language has one meaning if criminal
prosecutions are brought ... and quite a different meaning” in
civil action by private party); U.S. v. Charnay, 537 F.2d 341, 348
(9th Cir. 1976) (agreeing there was “no reasonable basis that
some different interpretation [of Rule 10b–5] should apply to a
criminal action than in a civil action” for meaning of “deceptive
device” under 15 U.S.C. § 78j(b)).

56a
evolution and incremental development of state and
local laws addressing the delicate balance between
open access to information and privacy—all in the
name of a federal statute enacted in 1984 before the
advent of the World Wide Web. 8
Congress could not have intended these profound
consequences when it enacted the CFAA in 1984. The
Court is reluctant to give the CFAA the expansive
interpretation sought by LinkedIn absent convincing
authority therefor.
Construction of the CFAA, including the terms
“access” and “without authorization,” should be
informed not only by Congress’ intent but also by the
LinkedIn argued at the hearing on this motion that the
likelihood of these negative consequences is lessened because
violation of the CFAA may be invoked only where the alleged
violation “caused ... loss ... aggregating at least $5,000 in value.”
18 U.S.C. § 1030(c)(4)(A)(i)(1). However, a violation of §
1030(a)(2) is punishable as a misdemeanor without regard to
amount of loss. 18 U.S.C. § 1030(c)(2)(A). Although felony
charges or a civil action may not be brought unless there is a
loss of at least $5,000, see § 1030(c)(4)(A)(i)(1) and 18 U.S.C. §
1030(g), the CFAA defines “loss” broadly as “any reasonable cost
to any victim, including the cost of responding to an offense,
conducting a damage assessment, and restoring the data,
program, system, or information to its condition prior to the
offense, and any revenue lost, cost incurred, or other
consequential damages incurred because of interruption of
service.” 18 U.S.C. § 1030(e)(11). As a number of courts have
explained, this “broadly worded provision plainly contemplates
consequential damages of the type sought by [Plaintiff]—costs
incurred as part of the response to a CFAA violation, including
the investigation of an offense.” A.V. ex rel. Vanderhye v.
iParadigms, LLC, 562 F.3d 630, 646 (4th Cir. 2009). Because
merely investigating a potential violation may satisfy the
statutory damage threshold, it is unlikely that the $5,000
requirement will provide a meaningful check on the potential
reach of the CFAA.

8

57a
Act’s theoretical underpinning. The CFAA’s origin as
a statute addressing the problem of computer
“trespass” suggests an interpretation of the statute
informed by examining general principles which
govern trespass laws. In an article cited approvingly
by the Ninth Circuit in both Nosal II and Power
Ventures, Professor Orin Kerr argues the analogy to
trespass laws is key to understanding the appropriate
scope of the “without authorization” provision of the
CFAA. See Orin S. Kerr, Norms of Computer
Trespass, 116 Colum. L. Rev. 1143 (2016). Kerr
argues that in the context of physical space, whether
or not an action constitutes a trespass depends on a
set of shared social norms that “tell us, at an intuitive
level, when entry to property is forbidden and when it
is permitted.” Id. at 1149. Thus, the Court
understands that it is generally impermissible to
enter into a private home without permission in any
circumstances. By contrast, it is presumptively not
trespassing to open the unlocked door of a business
during daytime hours because “the shared
understanding is that shop owners are normally open
to potential customers.” Id. at 1151. These norms,
moreover, govern not only the time of entry but the
manner; entering a business through the back
window might be a trespass even when entering
through the door is not.
Kerr argues that the process of discerning and
applying similar norms should govern “trespass” in
the digital realm, and that because the Web is
generally perceived as “inherently open,” in that it
“allows anyone in the world to publish information
that can be accessed by anyone else without requiring
authentication,” courts should incorporate this norm
by “adopt[ing] presumptively open norms for the

58a
Web.” Id. at 1162. This general understanding of the
open nature of the Web squares with language used
in a recent Supreme Court decision relied on by hiQ.
In Packingham v. North Carolina, ––– U.S. ––––, 137
S.Ct. 1730, 198 L.Ed.2d 273 (2017), the Court struck
down a North Carolina law making it a felony for a
registered sex offender to access social media
websites like Facebook and Twitter. The Court
explained that at present, social media sites are for
many people “the principal sources for knowing
current events, checking ads for employment,
speaking and listening in the modern public square,
and otherwise exploring the vast realms of human
thought and knowledge.” Id. at 1737. The Court’s
analogy of the Internet in general, and social
networking sites in particular, to the “modern public
square,” id., embraces the social norm that assumes
the openness and accessibility of that forum to all
comers. Cf. Ampex Corp. v. Cargle, 128 Cal.App.4th
1569, 1576, 27 Cal.Rptr.3d 863 (2005) (“Web sites
that are accessible free of charge to any member of
the public where members of the public may read the
views and information posted, and post their own
opinions, meet the definition of a public forum for
purposes of section 425.16 [the California anti–
SLAPP statute].”).
What would the adoption of such a norm of
openness mean for the interpretation of the CFAA?
According to Professor Kerr, the upshot is that
“authorization,” in the context of the CFAA, should be
tied to an authentication system, such as password
protection:
The authorization line should be
deemed crossed only when access is
gained by bypassing an authentication

59a
requirement.
An
authentication
requirement, such as a password gate,
is needed to create the necessary barrier
that divides open spaces from closed
spaces on the Web. This line achieves
an appropriate balance for computer
trespass law. It protects privacy when
meaningful steps are taken to seal off
access from the public while also
creating public rights to use the
Internet free from fear of prosecution.
Id. at 1161. This approach would square with the
results in both Nosal II and Power Ventures while
avoiding the negative consequences of an overly
broad reading of “authorization.” In both Nosal II and
Power Ventures, the defendants had bypassed a
password authentication system. In that sense, their
“access” was, as Nosal II explained, clearly “without
authorization” within the meaning of the CFAA. And
while Nosal II stated that the term “authorization”
has a plain and ordinary meaning, that meaning was
in the context of determining whether a former
employer could control “access” to its private data
protected by an authentication process. The plain
meaning of “authorization” of “access” as analyzed in
Nosal II is not so plain when viewed in the context of
presumptively open public page on the Internet.
Where a website or computer owner has imposed a
password authentication system to regulate access, it
makes sense to apply a plain meaning reading of
“access” “without authorization” such that “a
defendant can run afoul of the CFAA when he or she
has no permission to access a computer or when such
permission has been revoked explicitly.” Power
Ventures, 844 F.3d at 1067. But, as noted above, in

60a
the context of a publicly viewable web page open to
all on the Internet, the “plainness” of the meaning of
“access” “without authorization” is less obvious.
Context matters.
An analogy to physical space, while inevitably
imperfect when analyzing the digital world, may be
helpful. With respect to a closed space (e.g., behind a
locked door which requires a key to pass), the Court
intuitively understands that where an individual
does not have permission to enter, he would be
trespassing if he did so. Even if the door is open to
the public for business, the shop owner may impose
limits to the manner and scope of access (e.g., by
restricting access to a storage or employees-only
area). But if a business displayed a sign in its
storefront window visible to all on a public street and
sidewalk, it could not ban an individual from looking
at the sign and subject such person to trespass for
violating such a ban. LinkedIn, here, essentially
seeks to prohibit hiQ from viewing a sign publicly
visible to all.
In sum, viewed in a proper context, the Court has
serious doubt whether LinkedIn’s revocation of
permission to access the public portions of its site
renders hiQ’s access “without authorization” within
the meaning of the CFAA. Neither Nosal I, Nosal II,
nor Power Ventures so hold.
Lastly, with respect to the CFAA, LinkedIn argues
in part that what it objects to is not merely hiQ’s
access to the site, but hiQ’s automated scraping of
user data. But “authorization,” as used in CFAA §
1030(a)(2), is most naturally read in reference to the
identity of the person accessing the computer or
website, not how access occurs. Cf. Nosal I, 676 F.3d

61a
at 857–59 (distinguishing between unauthorized
access to versus use of data). Thus, Professor Kerr
persuasively argues that where an individual
employs an automated program that bypasses a
CAPTCHA—a program designed to allow humans but
to block “bots” from accessing a site—he has still not
entered the website “without authorization.” Unlike a
password gate, a CAPTCHA does not limit access to
certain individuals; it is instead intended “as a way to
slow[ ] a user’s access rather than as a way to deny
authorization to access.” Kerr, supra, at 1170. Other
measures taken by website owners to block or limit
access to bots may be thought of in the same way. A
user does not “access” a computer “without
authorization” by using bots, even in the face of
technical countermeasures, when the data it accesses
is otherwise open to the public. 9 Thus, under
Professor Kerr’s analysis, hiQ’s circumvention of
LinkedIn’s measures to prevent use of bots and
implementation of IP address blocks does not violate
the CFAA because hiQ accessed only publicly
viewable data not protected by an authentication
gateway. 10
This is not to say that a website like LinkedIn
cannot employ, e.g., anti-bot measures to prevent,
9 To take the analogy above another step, when a business
displays a sign in a storefront window for the public to view, it
may not prohibit on pain of trespass a viewer from
photographing that sign or viewing it with glare reducing
sunglasses.

Circumvention of a technological barrier does not
automatically give rise to a CFAA violation. See Nosal II, 844
F.3d at 1038 (rejecting at least in dicta the argument that “the
CFAA only criminalizes access where the party circumvents a
technological access barrier”).
10

62a
e.g., harmful intrusions or attacks on its server.
Finding the CFAA inapplicable to hiQ’s actions does
not remove all arrows from LinkedIn’s legal quiver
against malicious attacks. 11
The Court therefore concludes that hiQ has, at the
very least, raised serious questions as to applicability
of the CFAA to its conduct. 12 Accordingly, the Court
In addition to technological self-help, LinkedIn may be able to
pursue other legal remedies. For example, LinkedIn argues that
if it cannot invoke the CFAA to prevent unauthorized access by
bots, it may be left open to denial of service attacks. However,
the CFAA creates liability against “[w]hoever”—whether access
is authorized or not—“causes the transmission of a program,
information, code, or command, and as a result of such conduct,
intentionally causes damage without authorization, to a
protected computer.” 18 U.S.C. § 1030(a)(5)(A). Additionally,
such attacks are likely remediable under, e.g., the common law
tort of trespass to chattel. Trespass to chattel requires a plaintiff
to prove that a defendant intentionally interfered with plaintiff’s
use or possession of personal property, with resultant injury. See
California Civil Jury Instructions 2101; Itano v. Colonial Yacht
Anchorage, 267 Cal.App.2d 84, 90, 72 Cal.Rptr. 823 (1968).
California Courts have recognized that trespass to chattel may
be accomplished through purely electronic means. See Thrifty–
Tel, Inc. v. Bezenek, 46 Cal.App.4th 1559, 54 Cal.Rptr.2d 468
(1996) (upholding trespass to chattel verdict in favor of plaintiff
where defendants “employed computer technology” to crack
access and authorization codes and make long-distance phone
calls without paying for them).
11

12 hiQ also argues that the interpretation of the CFAA that
LinkedIn urges should be rejected under the canon of
constitutional avoidance, because it raises potentially serious
problems under the First Amendment. See Edward J. DeBartolo
Corp. v. Florida Gulf Coast Bldg. & Constr. Trades Council, 485
U.S. 568, 575, 108 S.Ct. 1392, 99 L.Ed.2d 645 (1988) (“[W]here
an otherwise acceptable construction of a statute would raise
serious constitutional problems, the Court will construe the
statute to avoid such problems unless such construction is
plainly contrary to the intent of Congress.”). Because the Court

63a

rejects LinkedIn’s interpretation on the grounds discussed
above, it need not reach hiQ’s First Amendment arguments. The
Court observes, however, that the threshold issue of state action
presents a serious hurdle to any direct First Amendment claim
against LinkedIn in this case. See, e.g., Brunette v. Humane
Society of Ventura County, 294 F.3d 1205, 1210 (9th Cir. 2002)
(private party may be deemed to have engaged in state action if
it is a willful participant in joint action with the government; if
the government has insinuated itself into a position of
interdependence with it; and if it performs functions
traditionally and exclusively reserved to the states); Brentwood
Academy v. Tennessee Secondary School Athletic Ass’n, 531 U.S.
288, 300–301, 121 S.Ct. 924, 148 L.Ed.2d 807 (2001) (state
action may be found where private entity is controlled by an
agency of the state, when its activity results from the state’s
exercise of coercive power, when the state provides
encouragement, or when government is “entwined” in the
entity’s policies, management, or control). LinkedIn is not a
state official or governmental agency; it is a private party and
there is no evidence that the CFAA has served to compel or
encourage LinkedIn to withdraw hiQ’s authorization to access
its website. Compare Brentwood Academy, 531 U.S. at 300, 121
S.Ct. 924 (private party’s actions may be characterized as state
action “when the State provides significant encouragement,
either overt or covert”) (citation and quotation omitted) with
Blum v. Yaretsky, 457 U.S. 991, 1005, 102 S.Ct. 2777, 73
L.Ed.2d 534 (1982) (nursing homes’ decisions to discharge
patients were not state action because they were made by
private parties according to professional standards not
established by the state, and the simple fact “[t]hat the State
responds to such actions by adjusting benefits does not render it
responsible for those actions”). However, the same interpretation
of the statute would apply uniformly to both civil and criminal
actions, see supra n.7, and a criminal prosecution under the
CFAA would undoubtedly constitute state action. Thus, because
the act of viewing a publicly accessible website is likely
protected by the First Amendment (see, e.g., Packingham, 137
S.Ct. at 1737 (statute’s prohibition on sex offender access to
social media websites raised serious First Amendment concerns
because, inter alia, “[s]ocial media allows users to gain access to
information ....”); Kleindienst v. Mandel, 408 U.S. 753, 762–63,
92 S.Ct. 2576, 33 L.Ed.2d 683 (1972) (noting the “variety of

64a
cannot conclude, at this stage, that the CFAA
preempts hiQ’s affirmative claims under state law.
The question then is whether hiQ is entitled to
preliminary injunctive relief not only against
enforcement of the CFAA but also against the use of
technological barriers. To obtain such relief, hiQ
would have to raise at least serious questions as to
whether it has rights under state laws which are
violated by LinkedIn’s conduct. The Court thus turns
to those state claims. 13
contexts [in which] this Court has referred to a First
Amendment right to receive information and ideas”) (quotation
omitted); First Nat’l Bank of Boston v. Bellotti, 435 U.S. 765,
782, 98 S.Ct. 1407, 55 L.Ed.2d 707 (1978) (the First Amendment
plays a role to protect “not only” “individual self-expression but
also ... affording public access to discussion, debate, and the
dissemination of information and ideas”); Board of Edu., Island
Trees Union Free School Dist. No. 26 v. Pico, 457 U.S. 853, 867,
102 S.Ct. 2799, 73 L.Ed.2d 435 (1982) (noting that the right to
receive information “is an inherent corollary of the rights of free
speech and press that are explicitly guaranteed by the
Constitution”); cf. Branzburg v. Hayes, 408 U.S. 665, 684–85, 92
S.Ct. 2646, 33 L.Ed.2d 626 (1972) (explaining that “[n]ewsmen
have no constitutional right of access to the scenes of crime or
disaster when the general public is excluded,” perhaps
suggesting that the right extends at least to information to
which the general public has access), the doctrine of
constitutional avoidance might well be properly considered in
interpreting the CFAA, even if the First Amendment were not
directly implicated in this particular case. See Sosa v.
DIRECTV, Inc., 437 F.3d 923, 932, 942 (9th Cir. 2006) (statute
should be construed to avoid burdening First Amendment
interests where possible). The doctrine of constitutional
avoidance, if applicable, would substantiate the Court’s doubt
about the applicability of the CFAA to hiQ’s conduct.
13 For the same reasons, the Court concludes that hiQ has raised
serious questions about whether provisions of the California
analog to the CFAA, California Penal Code § 502, referring to
unauthorized access apply to the conduct here. Cf.

65a
2. California Constitutional Claim
hiQ argues that LinkedIn’s actions violate
California’s constitutional free speech protections.
Article I, Section 2 of the California Constitution
provides that “[e]very person may freely speak, write,
and publish his or her sentiments on all subjects.”
The California Supreme Court has long recognized
that this provision confers broader free speech rights
than those provided by the First Amendment. See
Dailey v. Superior Court of City & Cty. of San
Francisco, 112 Cal. 94, 97–98, 44 P. 458 (1896). In
particular, unlike the First Amendment, California’s
provision is not limited to restraining state entities.
The California Supreme Court, in its landmark
decision in Robins v. Pruneyard Shopping Ctr., 23
Cal.3d 899, 905, 153 Cal.Rptr. 854, 592 P.2d 341
(1979), held that the state’s guarantee of free
expression may take precedence over the rights of
private property owners to exclude people from their
property. Robins concerned attempts by a large
shopping mall to exclude individuals engaging in
political speech. In holding that this speech was
protected by the state constitution, the court
emphasized the importance of the shopping mall as a
public forum and center of community life, a place
where “25,000 persons are induced to congregate
City of Los Angeles, 155 Cal.App.4th 29, 34, 65 Cal.Rptr.3d 701
(2007) (noting that “[s]ection 502 defines ‘access’ in terms
redolent of ‘hacking’ or breaking into a computer”). Though the
statute also includes a provision that prohibits “knowingly
access[ing] and without permission tak[ing], cop[ying], or
mak[ing] use of any data from a computer, computer system, or
computer network,” Cal. Pen. Code § 502(c)(2), the Court
similarly concludes there are serious questions about whether
these provisions criminalize viewing public portions of a
website.

66a
daily to take advantage of the numerous amenities
offered.” Id. at 910, 153 Cal.Rptr. 854, 592 P.2d 341.
hiQ argues that LinkedIn is an internet-age
equivalent to the Pruneyard Shopping Center. hiQ
notes that like the shopping center, “LinkedIn opens
the public profile section of its website to the public.
LinkedIn promises its members that the public
profiles on its site can be viewed by everyone.” Motion
at 17. Moreover, LinkedIn “expressly holds itself out
as a place ‘to meet, exchange ideas, [and] learn,’ ...
making it a modern-day equivalent of the shopping
mall or town square, a marketplace of ideas on a
previously unimaginable scale.” Id. For that reason,
hiQ argues, it has a right under the California
Constitution to access that marketplace on equal
terms with all other people and that LinkedIn’s
private property rights in controlling access to its
computers cannot take precedence. Cf. Nicholson v.
McClatchy Newspapers, 177 Cal.App.3d 509, 223
Cal.Rptr. 58 (1986) (concluding that under federal
case-law, “[w]hile reporters are not privileged to
commit crimes and independent torts in gathering
the news, and the press has no special constitutional
right of access to information, ‘news gathering is not
without its First Amendment protections’”) (quoting
Branzburg, 408 U.S. at 707, 92 S.Ct. 2646). See
generally
Beeman
v.
Anthem
Prescription
Management, LLC, 58 Cal.4th 329, 341, 165
Cal.Rptr.3d 800, 315 P.3d 71 (2013) (“The state
Constitution’s free speech provision is at least as
broad as and in some ways is broader than the
comparable provision of the federal Constitution’s
First Amendment.”) (citations and quotations
omitted); Dailey, supra, 112 Cal. at 97–98, 44 P. 458.
No court has expressly extended Pruneyard to the

67a
Internet generally. Although the California Supreme
Court has held that, under Pruneyard, “the actions of
a private property owner constitute state action for
purposes of California’s free speech clause only if the
property is freely and openly accessible to the public,”
Golden Gateway Center v. Golden Gateway Tenants
Assn., 26 Cal.4th 1013, 1033, 111 Cal.Rptr.2d 336, 29
P.3d 797 (2001), this discussion occurred in the
context of real property. Though certain spaces on the
Internet share important characteristics of the
traditional public square, see, e.g., Packingham, 137
S.Ct. at 1737 (characterizing social network sites as
“the modern public square”), at this juncture, the
Court has doubts about whether Pruneyard may be
extended wholesale into the digital realm of the
Internet. No court has had occasion to so hold or to
consider the reach and potentially sweeping
consequences of such a holding. For instance, would
all publicly viewable websites on the Internet be
subject to constitutional constraints regardless of size
of the business? Does Pruneyard, which involves a
single owner of the public forum (the shopping
center), apply to a website which constitutes only a
portion of the Internet and where there is no single
controlling entity? Would the entire Internet or only a
particular collection of websites constitute a public
forum? If the Internet were a public forum governed
by constitutional speech, would social network sites
such as Facebook be prohibited from engaging in any
content-based regulation of postings? The analogy
between a shopping mall and the Internet is
imperfect, and there are a host of potential “slippery
slope” problems that are likely to surface were
Pruneyard to apply to the Internet.
It is true that a number of California state courts

68a
have determined that publicly accessible websites
may constitute public fora within the meaning of the
state’s anti–SLAPP law. In Ampex Corp., the
California Court of Appeal held that postings made
on an internet message board constituted speech in a
public forum for the purposes of the statute. The
court explained that “[t]he term ‘public forum’
includes forms of public communication other than
those occurring in a physical setting. Thus the
electronic communication media may constitute
public forums. Web sites that are accessible free of
charge to any member of the public where members
of the public may read the views and information
posted, and post their own opinions, meet the
definition of a public forum for purposes of section
425.16.” Ampex Corp., 128 Cal.App.4th at 1576, 27
Cal.Rptr.3d 863 (emphasis added). The reach of the
anti–SLAPP statute is broader than the scope of
constitutionally protected speech; it applies to a cause
of action arising from an act “in furtherance of” the
person’s right of free speech under the constitution.
Cal. Civ. Proc. Code § 425.16(b); Ampex Corp., 128
Cal.App.4th at 1575, 27 Cal.Rptr.3d 863; cf.
Lieberman v. KCOP Television, Inc., 110 Cal.App.4th
156, 166, 1 Cal.Rptr.3d 536, 542 (2003) (explaining
that the anti–SLAPP law’s protections are “not
limited to the exercise of [the] right of free speech,
but to all conduct in furtherance of the exercise of the
right to free speech in connection with a public issue”
(emphasis in original)).
Similarly, in Barrett v. Rosenthal, 40 Cal.4th 33,
51 Cal.Rptr.3d 55, 146 P.3d 510 (2006), two
physicians brought an action for libel and libel per se
against a health activist who had posted messages
attacking the physicians’ character to publicly

69a
accessible Internet newsgroups. The California
Supreme Court agreed with the Court of Appeals that
“[w]eb sites accessible to the public ... are ‘public
forums’ for the purposes of the anti–SLAPP statute.”
Id. at 41 n.4, 51 Cal.Rptr.3d 55, 146 P.3d 510. As in
Ampex, however, this holding was limited to whether
the defendant could invoke the anti–SLAPP statute’s
protections. Indeed, the Court of Appeals in that case
had treated the speech in question as “act or acts ...
taken ‘in furtherance of [her] right of petition or free
speech’” under the anti–SLAPP law. Barrett v.
Rosenthal, 114 Cal.App.4th 1379, 9 Cal.Rptr.3d 142,
149 (Ct. App. 2004) (emphasis added).
Because the anti–SLAPP statute protects conduct
beyond constitutionally protected speech itself,
neither Ampex Corp. nor Barrett can be read to hold
that the Internet generally is a public forum subject
to Art. I, Section 2 of the California Constitution. In
light of the potentially sweeping implications
discussed above and the lack of any more direct
authority, the Court cannot conclude that hiQ has at
this juncture raised “serious questions” that
LinkedIn’s conduct violates its constitutional rights
under the California Constitution.
3. UCL Claim
hiQ next argues that LinkedIn’s decision to block
its access to member data was made for an
impermissible anticompetitive purpose—namely that
it wants to monetize this data itself with a competing
product—and that its conduct therefore constitutes
“unfair” competition under California’s Unfair
Competition Law (“UCL”), Cal. Bus. & Prof. Code §§
17200 et seq.
The UCL broadly prohibits any “unlawful, unfair

70a
or fraudulent business act or practices.” Id. Practices
are “unfair” when grounded in “some legislatively
declared policy or proof of some actual or threatened
effect on competition.” Cel–Tech Commc’ns, Inc. v.
Los Angeles Cellular Tel. Co., 20 Cal.4th 163, 187, 83
Cal.Rptr.2d 548, 973 P.2d 527 (1999). One such set of
policies are those embodied in the federal antitrust
laws. Id.; see also Blank v. Kirwan, 39 Cal.3d 311,
320, 216 Cal.Rptr. 718, 703 P.2d 58 (1985) (noting
that California law looks to the Sherman Act for
guidance). Significantly, however, “unfair” practices
under the UCL are not limited to actual antitrust
violations, but also include “conduct that threatens
an incipient violation of an antitrust law, or violates
the policy or spirit of one of those laws because its
effects are comparable to or the same as a violation of
the law, or otherwise significantly threatens or harms
competition.” Cel–Tech, 20 Cal.4th at 187, 83
Cal.Rptr.2d 548, 973 P.2d 527.
hiQ argues that LinkedIn’s conduct violates the
spirit of the antitrust laws in two ways: First,
“LinkedIn is unfairly leveraging its power in the
professional networking market to secure an
anticompetitive advantage in another market—the
data analytics market.” Motion at 11. hiQ asserts
that LinkedIn is taking advantage of its dominant
position in the field of professional networking to
secure a competitively unjustified advantage in a
different market. Second, hiQ argues that LinkedIn’s
conduct violates the “essential facilities” doctrine,
“which precludes a monopolist or attempted
monopolist from denying access to a facility it
controls that is essential to its competitors.” Id. at 12.
The Court agrees that hiQ has raised serious
questions with respect to its claim that LinkedIn is

71a
unfairly leveraging its power in the professional
networking market for an anticompetitive purpose.
The Sherman Act prohibits companies from
leveraging monopoly power to “foreclose competition
or gain a competitive advantage, or to destroy a
competitor.” Otter Tail Power Co. v. United States,
410 U.S. 366, 377, 93 S.Ct. 1022, 35 L.Ed.2d 359
(1973). In this case, hiQ plausibly asserts that
LinkedIn enjoys a position as the dominant power in
the market of professional networking. Furthermore,
hiQ has presented evidence that LinkedIn is seeking
to compete with hiQ in the market of data analytics.
In a news segment airing on national television on
June 21, 2017, LinkedIn’s CEO announced that
“[w]hat LinkedIn would like to do is leverage all this
extraordinary data we’ve been able to collect by
virtue of having 500 million people join the site ... to
make sure that each individual member has
information about where those jobs are” and that
“[f]or employers, [the goal is to provide] an
understanding of what skills they’re gonna need to be
able to continue to grow, and where that talent
exists.” Docket No. 34 (Gupta Decl.) Ex. U. at 2. In
other words, LinkedIn appears to be developing a
product that competes directly with hiQ’s Skill
Mapper product, which helps employers understand
what skills the members of their workforces possess.
There is thus a plausible inference that LinkedIn
terminated hiQ’s access to its public member data in
large part because it wanted exclusive control over
that data for its own business purposes; as noted
above, hiQ faces an existential threat. That inference
is supported by the timing of the commencement of
its employer product which appears to coincide
roughly with its terminating hiQ’s access.

72a
LinkedIn argues that it acted solely out of concern
for member privacy, but, as discussed above, that
argument is put in question by the fact that LinkedIn
itself makes user data available to third parties. hiQ
also points to other litigation in which LinkedIn has
taken the position that its members have no privacy
interest in the information they choose to make
public. In Perkins v. LinkedIn Corp., No. 13–cv–
4303–LHK (N.D. Cal.), LinkedIn members brought a
putative class action against LinkedIn alleging that it
wrongfully harvested their contacts’ email addresses
and repeatedly sent emails soliciting them to join
LinkedIn without the members’ consent. LinkedIn
argued that its communications included only
information which the plaintiffs in that case had
“chos[en] to make public.” Gupta Decl. Ex. W at 23.
Of course, hiQ here seeks also to collect only
information which users have chosen to make public.
To be sure, LinkedIn may well be able to
demonstrate it was not motivated by anticompetitive
purposes and that there is in fact no threatened antitrust violation; instead, it is motivated by a desire to
preserve user privacy preferences and its users’ trust.
But, hiQ has presented some evidence supporting its
assertion that LinkedIn’s decision to revoke hiQ’s
access to its data was made for the purpose of
eliminating hiQ as a competitor in the data analytics
field, and thus potentially “violates the policy or
spirit” of the Sherman Act. Cel–Tech, 20 Cal.4th at
187, 83 Cal.Rptr.2d 548, 973 P.2d 527. While hiQ will
have to do much more to prove such a claim, it has
raised at least serious enough questions on the merits
of its UCL claim at this juncture to support the
issuance of a preliminary injunction.
4. Promissory Estoppel

73a
Lastly, hiQ argues that it is likely to prevail on
claims under the common law of promissory
estoppel. 14 This claim appears meritless. hiQ bases
its promissory estoppel on LinkedIn’s alleged promise
to its users that they control the visibility of their
data. By restricting hiQ’s access to public member
data, hiQ contends that LinkedIn has reneged on that
promise with respect to members who want their
data to be publicly available to all viewers. But the
fact that a user has set his profile to public does not
imply that he wants any third parties to collect and
use that data for all purposes, and there is no
indication that LinkedIn has made any promises to
users that their data may be used in that way. Thus,
LinkedIn’s restrictions in hiQ’s collection do not
violate any promise made to its users. Moreover, hiQ
has not cited any authority applying promissory
estoppel to a promise made to someone other than the
party asserting that claim. For instance, hiQ does not
claim to be a cognizable third party beneficiary of
such promise or that even that a third party
beneficiary doctrine applies to promissory estoppel.
C. Public Interest
At the final step of its preliminary injunction
hiQ also asserts a common law claim of tortious interference
with contract, but the California Supreme Court has held that
such a claim is foreclosed as long as the defendant “had a
legitimate business purpose which justified its actions.”
Quelimane Co. v. Stewart Title Guar. Co., 19 Cal.4th 26, 57, 77
Cal.Rptr.2d 709, 960 P.2d 513 (1998). For that reason, the
analysis of the tortious interference claim simply overlaps with
the analysis of the unfair competition claim: if LinkedIn acted
for an improper anticompetitive purpose, then the tortious
interference claim may lie; if, on the other hand, it acted out of
legitimate concern for member privacy, then the claim fails.

14

74a
analysis, the Court must consider where the public
interest lies. Here, each party contends that the
public interest favors its position, because each party
believes that its position will maximize the free flow
of information. hiQ argues that a private party
should not have the unilateral authority to restrict
other private parties from accessing information that
is otherwise available freely to all. Granting such
authority, hiQ argues, would raise serious
constitutional questions, as it would delegate to
private parties the sole authority to decide who gets
to participate in the marketplace of ideas located in
the “modern public square” of the Internet. Moreover,
at issue is the right to receive and process publicly
available information. In view of the vast amount of
information publicly available, the value and utility
of much of that information is derived from the
ability to find, aggregate, organize, and analyze data.
LinkedIn, by contrast, argues that in addition to
safeguarding its users’ privacy, its position is actually
the speech-maximizing position. It contends that if its
users knew that their data was freely available to
unrestricted collection and analysis by third parties
for any purposes, they would be far less likely to
make such information available online. Granting an
injunction, therefore, will have a substantial chilling
effect on the very speech that makes the Internet the
modern equivalent of the public square.
For present purposes, the Court concludes that
the public interest favors hiQ’s position. As explained
above, the actual privacy interests of LinkedIn users
in their public data are at best uncertain. It is likely
that those who opt for the public view setting expect
their public profile will be subject to searches, date
mining, aggregation, and analysis. On the other

75a
hand, conferring on private entities such as LinkedIn,
the blanket authority to block viewers from accessing
information publicly available on its website for any
reason, backed by sanctions of the CFAA, could pose
an ominous threat to public discourse and the free
flow of information promised by the Internet.
Finally, given the Court’s holding that hiQ has
raised serious questions that LinkedIn’s behavior
may be anticompetitive conduct in violation of
California’s Unfair Competition Law, a preliminary
injunction leans further in favor of the public
interest. See, e.g., American Exp. Co. v. Italian Colors
Restaurant, 133 U.S. 2304, 133 S.Ct. 2304, 2313, 186
L.Ed.2d 417 (2013) (noting “the public interest in
vigilant enforcement of the antitrust laws”).
IV. CONCLUSION
In sum, the Court concludes that: (1) the balance
of hardships tips sharply in hiQ’s favor; (2) hiQ has
raised serious questions going to the merits of its
UCL claim and the applicability of the CFAA; and (3)
the public interest favors a preliminary injunction.
For these reasons, the Court GRANTS hiQ’s motion
for a preliminary injunction and ORDERS as follows:
1. Defendant LinkedIn Corporation and its
officers, agents, servants, employees, and attorneys
are hereby enjoined from (1) preventing hiQ’s access,
copying, or use of public profiles on LinkedIn’s
website (i.e., information which LinkedIn members
have designated public, meaning it is visible not just
to LinkedIn members but also to others, including
those who may access LinkedIn’s website via Google,
Bing, other services, or by direct URL) and (2)
blocking or putting in place any mechanism (whether
legal or technical) with the effect of blocking hiQ’s

76a
access to such member public profiles. To the extent
LinkedIn has already put in place technology to
prevent hiQ from accessing these public profiles, it is
ordered to remove any such barriers within 24 hours
of the issuance of this Order.
2. Defendant LinkedIn Corporation and its
officers, agents, servants, employees, and attorneys
shall withdraw the cease and desist letters to hiQ
dated May 23, 2017 and June 24, 2017. LinkedIn
shall refrain from issuing any further cease and
desist letters on the grounds therein stated during
the pendency of this injunction.
3. This preliminary injunction shall take effect
immediately.
4. No bond shall be required, as Defendant has not
demonstrated it is likely to be harmed by being so
enjoined.
This order disposes of Docket No. 23.
IT IS SO ORDERED.

77a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16783
HIQ LABS, INC.,
Plaintiff-Appellee,
v.
LINKEDIN CORPORATION,
Defendant-Appellant.
Appeal from the United States District Court for
the Northern District of California Edward M.
Chen, District Judge, Presiding, D.C. No. 3:17-cv03301-EMC
[Filed November 8, 2019]
Before: WALLACE and BERZON, Circuit Judges,
and BERG, * District Judge.
ORDER
The panel has unanimously voted to deny
appellant’s petition for rehearing. Judge Berzon has
voted to deny the petition for rehearing en banc.
Judge Wallace and Judge Berg recommend denial of
the petition for rehearing en banc.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R.
App. P. 35.

The Honorable Terrence Berg, United States District Judge for
the Eastern District of Michigan, sitting by designation.

*

78a
The petition for rehearing is denied and the
petition for rehearing en banc is rejected.

79a
APPENDIX D
18 U.S.C. § 1030
Fraud and related activity in connection with
computers
Effective: November 16, 2018
(a) Whoever-(1) having knowingly accessed a computer without
authorization or exceeding authorized access, and
by means of such conduct having obtained
information that has been determined by the
United States Government pursuant to an
Executive order or statute to require protection
against unauthorized disclosure for reasons of
national defense or foreign relations, or any
restricted data, as defined in paragraph y. of section
11 of the Atomic Energy Act of 1954, with reason to
believe that such information so obtained could be
used to the injury of the United States, or to the
advantage of any foreign nation willfully
communicates, delivers, transmits, or causes to be
communicated, delivered, or transmitted, or
attempts to communicate, deliver, transmit or
cause to be communicated, delivered, or
transmitted the same to any person not entitled to
receive it, or willfully retains the same and fails to
deliver it to the officer or employee of the United
States entitled to receive it;
(2) intentionally accesses a computer without
authorization or exceeds authorized access, and
thereby obtains-(A) information contained in a financial record of
a financial institution, or of a card issuer as
defined in section 1602(n) of title 15, or contained

80a
in a file of a consumer reporting agency on a
consumer, as such terms are defined in the Fair
Credit Reporting Act (15 U.S.C. 1681 et seq.);
(B) information from any department or agency of
the United States; or
(C) information from any protected computer;
(3) intentionally, without authorization to access
any nonpublic computer of a department or agency
of the United States, accesses such a computer of
that department or agency that is exclusively for
the use of the Government of the United States or,
in the case of a computer not exclusively for such
use, is used by or for the Government of the United
States and such conduct affects that use by or for
the Government of the United States;
(4) knowingly and with intent to defraud, accesses
a protected computer without authorization, or
exceeds authorized access, and by means of such
conduct furthers the intended fraud and obtains
anything of value, unless the object of the fraud and
the thing obtained consists only of the use of the
computer and the value of such use is not more
than $5,000 in any 1-year period;
(5)(A) knowingly causes the transmission of a
program, information, code, or command, and as a
result of such conduct, intentionally causes damage
without authorization, to a protected computer;
(B) intentionally accesses a protected computer
without authorization, and as a result of such
conduct, recklessly causes damage; or
(C) intentionally accesses a protected computer
without authorization, and as a result of such
conduct, causes damage and loss.

81a
(6) knowingly and with intent to defraud traffics
(as defined in section 1029) in any password or
similar information through which a computer may
be accessed without authorization, if-(A) such trafficking affects interstate or foreign
commerce; or
(B) such computer is used by or for the
Government of the United States;
(7) with intent to extort from any person any money
or other thing of value, transmits in interstate or
foreign commerce any communication containing
any-(A) threat to cause damage to a protected
computer;
(B) threat to obtain information from a protected
computer without authorization or in excess of
authorization or to impair the confidentiality of
information obtained from a protected computer
without authorization or by exceeding authorized
access; or
(C) demand or request for money or other thing of
value in relation to damage to a protected
computer, where such damage was caused to
facilitate the extortion;
shall be punished as provided in subsection (c) of this
section.
(b) Whoever conspires to commit or attempts to
commit an offense under subsection (a) of this section
shall be punished as provided in subsection (c) of this
section.
(c) The punishment for an offense under subsection
(a) or (b) of this section is--

82a
(1)(A) a fine under this title or imprisonment for
not more than ten years, or both, in the case of an
offense under subsection (a)(1) of this section which
does not occur after a conviction for another offense
under this section, or an attempt to commit an
offense punishable under this subparagraph; and
(B) a fine under this title or imprisonment for not
more than twenty years, or both, in the case of an
offense under subsection (a)(1) of this section which
occurs after a conviction for another offense under
this section, or an attempt to commit an offense
punishable under this subparagraph;
(2)(A) except as provided in subparagraph (B), a
fine under this title or imprisonment for not more
than one year, or both, in the case of an offense
under subsection (a)(2), (a)(3), or (a)(6) of this
section which does not occur after a conviction for
another offense under this section, or an attempt to
commit an offense punishable under this
subparagraph;
(B) a fine under this title or imprisonment for not
more than 5 years, or both, in the case of an offense
under subsection (a)(2), or an attempt to commit an
offense punishable under this subparagraph, if-(i) the offense was committed for purposes of
commercial advantage or private financial gain;
(ii) the offense was committed in furtherance of
any criminal or tortious act in violation of the
Constitution or laws of the United States or of
any State; or
(iii) the value of the information obtained exceeds
$5,000; and
(C) a fine under this title or imprisonment for not

83a
more than ten years, or both, in the case of an
offense under subsection (a)(2), (a)(3) or (a)(6) of
this section which occurs after a conviction for
another offense under this section, or an attempt to
commit an offense punishable under this
subparagraph;
(3)(A) a fine under this title or imprisonment for
not more than five years, or both, in the case of an
offense under subsection (a)(4) or (a)(7) of this
section which does not occur after a conviction for
another offense under this section, or an attempt to
commit an offense punishable under this
subparagraph; and
(B) a fine under this title or imprisonment for not
more than ten years, or both, in the case of an
offense under subsection (a)(4), or (a)(7) of this
section which occurs after a conviction for another
offense under this section, or an attempt to commit
an offense punishable under this subparagraph;
(4)(A) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 5 years, or both, in the case of-(i) an offense under subsection (a)(5)(B), which
does not occur after a conviction for another
offense under this section, if the offense caused
(or, in the case of an attempted offense, would, if
completed, have caused)-(I) loss to 1 or more persons during any 1-year
period (and, for purposes of an investigation,
prosecution, or other proceeding brought by the
United States only, loss resulting from a related
course of conduct affecting 1 or more other
protected computers) aggregating at least
$5,000 in value;

84a
(II) the modification or impairment, or potential
modification or impairment, of the medical
examination, diagnosis, treatment, or care of 1
or more individuals;
(III) physical injury to any person;
(IV) a threat to public health or safety;
(V) damage affecting a computer used by or for
an entity of the United States Government in
furtherance of the administration of justice,
national defense, or national security; or
(VI) damage affecting 10 or more protected
computers during any 1-year period; or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(B) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 10 years, or both, in the case of-(i) an offense under subsection (a)(5)(A), which
does not occur after a conviction for another
offense under this section, if the offense caused
(or, in the case of an attempted offense, would, if
completed, have caused) a harm provided in
subclauses (I) through (VI) of subparagraph (A)(i);
or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(C) except as provided in subparagraphs (E) and
(F), a fine under this title, imprisonment for not
more than 20 years, or both, in the case of-(i) an offense or an attempt to commit an offense
under subparagraphs (A) or (B) of subsection
(a)(5) that occurs after a conviction for another

85a
offense under this section; or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(D) a fine under this title, imprisonment for not
more than 10 years, or both, in the case of-(i) an offense or an attempt to commit an offense
under subsection (a)(5)(C) that occurs after a
conviction for another offense under this section;
or
(ii) an attempt to commit an offense punishable
under this subparagraph;
(E) if the offender attempts to cause or knowingly
or recklessly causes serious bodily injury from
conduct in violation of subsection (a)(5)(A), a fine
under this title, imprisonment for not more than 20
years, or both;
(F) if the offender attempts to cause or knowingly
or recklessly causes death from conduct in violation
of subsection (a)(5)(A), a fine under this title,
imprisonment for any term of years or for life, or
both; or
(G) a fine under this title, imprisonment for not
more than 1 year, or both, for-(i) any other offense under subsection (a)(5); or
(ii) an attempt to commit an offense punishable
under this subparagraph.
[(5) Repealed. Pub.L. 110-326, Title
204(a)(2)(D), Sept. 26, 2008, 122 Stat. 3562]

II,

§

(d)(1) The United States Secret Service shall, in
addition to any other agency having such authority,
have the authority to investigate offenses under this

86a
section.
(2) The Federal Bureau of Investigation shall have
primary authority to investigate offenses under
subsection (a)(1) for any cases involving espionage,
foreign counterintelligence, information protected
against unauthorized disclosure for reasons of
national defense or foreign relations, or Restricted
Data (as that term is defined in section 11y of the
Atomic Energy Act of 1954 (42 U.S.C. 2014(y)), except
for offenses affecting the duties of the United States
Secret Service pursuant to section 3056(a) of this
title.
(3) Such authority shall be exercised in accordance
with an agreement which shall be entered into by the
Secretary of the Treasury and the Attorney General.
(e) As used in this section-(1) the term “computer” means an electronic,
magnetic, optical, electrochemical, or other high
speed data processing device performing logical,
arithmetic, or storage functions, and includes any
data storage facility or communications facility
directly related to or operating in conjunction with
such device, but such term does not include an
automated typewriter or typesetter, a portable
hand held calculator, or other similar device;
(2) the term
computer--

“protected

computer”

means

a

(A) exclusively for the use of a financial
institution or the United States Government, or,
in the case of a computer not exclusively for such
use, used by or for a financial institution or the
United States Government and the conduct
constituting the offense affects that use by or for

87a
the financial institution or the Government; or
(B) which is used in or affecting interstate or
foreign commerce or communication, including a
computer located outside the United States that is
used in a manner that affects interstate or foreign
commerce or communication of the United States;
(3) the term “State” includes the District of
Columbia, the Commonwealth of Puerto Rico, and
any other commonwealth, possession or territory of
the United States;
(4) the term “financial institution” means-(A) an institution, with deposits insured by the
Federal Deposit Insurance Corporation;
(B) the Federal Reserve or a member of the
Federal Reserve including any Federal Reserve
Bank;
(C) a credit union with accounts insured by the
National Credit Union Administration;
(D) a member of the Federal home loan bank
system and any home loan bank;
(E) any institution of the Farm Credit System
under the Farm Credit Act of 1971;
(F) a broker-dealer registered with the Securities
and Exchange Commission pursuant to section 15
of the Securities Exchange Act of 1934;
(G)
the
Securities
Corporation;

Investor

Protection

(H) a branch or agency of a foreign bank (as such
terms are defined in paragraphs (1) and (3) of
section 1(b) of the International Banking Act of
1978); and

88a
(I) an organization operating under section 25 or
section 25(a) of the Federal Reserve Act;
(5) the term “financial record” means information
derived from any record held by a financial
institution pertaining to a customer’s relationship
with the financial institution;
(6) the term “exceeds authorized access” means to
access a computer with authorization and to use
such access to obtain or alter information in the
computer that the accesser is not entitled so to
obtain or alter;
(7) the term “department of the United States”
means the legislative or judicial branch of the
Government or one of the executive departments
enumerated in section 101 of title 5;
(8) the term “damage” means any impairment to
the integrity or availability of data, a program, a
system, or information;
(9) the term “government entity” includes the
Government of the United States, any State or
political subdivision of the United States, any
foreign country, and any state, province,
municipality, or other political subdivision of a
foreign country;
(10) the term “conviction” shall include a conviction
under the law of any State for a crime punishable
by imprisonment for more than 1 year, an element
of which is unauthorized access, or exceeding
authorized access, to a computer;
(11) the term “loss” means any reasonable cost to
any victim, including the cost of responding to an
offense, conducting a damage assessment, and
restoring the data, program, system, or information

89a
to its condition prior to the offense, and any
revenue lost, cost incurred, or other consequential
damages incurred because of interruption of
service; and
(12) the term “person” means any individual, firm,
corporation, educational institution, financial
institution, governmental entity, or legal or other
entity.
(f) This section does not prohibit any lawfully
authorized investigative, protective, or intelligence
activity of a law enforcement agency of the United
States, a State, or a political subdivision of a State, or
of an intelligence agency of the United States.
(g) Any person who suffers damage or loss by reason
of a violation of this section may maintain a civil
action against the violator to obtain compensatory
damages and injunctive relief or other equitable
relief. A civil action for a violation of this section may
be brought only if the conduct involves 1 of the
factors set forth in subclauses (I), (II), (III), (IV), or
(V) of subsection (c)(4)(A)(i). Damages for a violation
involving only conduct described in subsection
(c)(4)(A)(i)(I) are limited to economic damages. No
action may be brought under this subsection unless
such action is begun within 2 years of the date of the
act complained of or the date of the discovery of the
damage. No action may be brought under this
subsection for the negligent design or manufacture of
computer hardware, computer software, or firmware.
(h) The Attorney General and the Secretary of the
Treasury shall report to the Congress annually,
during the first 3 years following the date of the
enactment
of
this
subsection,
concerning
investigations and prosecutions under subsection

90a
(a)(5).
(i)(1) The court, in imposing sentence on any person
convicted of a violation of this section, or convicted of
conspiracy to violate this section, shall order, in
addition to any other sentence imposed and
irrespective of any provision of State law, that such
person forfeit to the United States-(A) such person’s interest in any personal property
that was used or intended to be used to commit or
to facilitate the commission of such violation; and
(B) any property, real or personal, constituting or
derived from, any proceeds that such person
obtained, directly or indirectly, as a result of such
violation.
(2) The criminal forfeiture of property under this
subsection, any seizure and disposition thereof, and
any judicial proceeding in relation thereto, shall be
governed by the provisions of section 413 of the
Comprehensive Drug Abuse Prevention and Control
Act of 1970 (21 U.S.C. 853), except subsection (d) of
that section.
(j) For purposes of subsection (i), the following shall
be subject to forfeiture to the United States and no
property right shall exist in them:
(1) Any personal property used or intended to be
used to commit or to facilitate the commission of
any violation of this section, or a conspiracy to
violate this section.
(2) Any property, real or personal, which
constitutes or is derived from proceeds traceable to
any violation of this section, or a conspiracy to
violate this section

